Creating an
environment
of change




        OFFICE OF THE INSPECTOR GENERAL
        TENNESSEE VALLEY AUTHORITY

        SEMIANNUAL REPORT
        APRIL 1 – SEPTEMBER 30, 2010


                                          Printed on 100% recycled paper
                   Table of Contents
                   Message from the Inspector General. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

                   Special Feature . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

                   Noteworthy Undertakings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13

                   Executive Overview. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 17

                   Organization .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20

                   Inspections .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25

                   Audits.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33

                   Investigations . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43

                   Legislation and Regulations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49

                   Appendices.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 52

                   Appendix 1 – Index of Reporting Requirements Under the Inspector General Act.  .  . 53

Tennessee Valley   Appendix 2 – Audit and Inspection Reports Issued. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54

                   Appendix 3 – Audit and Inspection Reports Issued With Questioned and
                   	                    Unsupported Costs and Recommendations for Better Use of Funds.  .  . 57

                   Appendix 4 – Audit and Inspection Reports with Corrective Actions Pending .  .  .  .  . 59

                   Appendix 5 – Investigative Referrals and Prosecutive Results . .  .  .  .  .  .  .  .  .  .  .  .  . 61

                   Appendix 6 – Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 62

                   Appendix 7 – Peer Reviews of the TVA OIG. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 63

                   Appendix 8 – Peer Reviews Performed by the TVA OIG. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 64

                   Glossary. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 68

                   Abbreviations and Acronyms . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 69
                                     Message from the Inspector General
                                     I am pleased to present our report for the period April 1, 2010,
                                     through September 30, 2010.  The hard work of our TVA OIG
                                     employees resulted in almost $20.5 million in recoveries,
                                     fines/penalties, potential savings, questioned costs, or funds which
                                     could be put to better use during this reporting period as well as
                                     numerous recommendations to improve TVA programs. 


                                     We continue to monitor the progress    Our report entitled “TVA’s
                                     TVA is making with both the Kingston   Environmental Performance Results”
                                     coal ash clean-up efforts and TVA’s    shows that TVA benchmarked against
                                     overall record of environmental        other utilities ranks in the middle on
                                     performance. Some of our reviews       most environmental measures. This is
                                     include:                               the fourth in a series of benchmarking
                                                                            reports answering the question, “How
                                     •	 TVA’s Environmental                 is TVA doing.”
                                     	 Performance Results
                                                                            In addition, our Investigations          I would like to thank Congress and
Message From The Inspector General   •	 Kingston Ash Spill Clean-Up
                                     	 and Recovery Efforts
                                                                            organization remains engaged in
                                                                            investigating significant allegations
                                                                                                                     the TVA Board for their continued
                                                                                                                     support of our work. I look forward
                                                                            of criminal and administrative           to working again with Director
                                     •	 Long Term Environmental 	 	         misconduct related to TVA personnel      William “Bill” Sansom, and I
                                     	 Recovery Plan for Kingston           or programs.                             welcome our new Board members,
                                                                                                                     Barbara S. Haskew, Marilyn A. Brown,
                                     •	 Peer Review of the Stability        TVA continues to do the hard work        and Neil McBride to TVA.
                                     	 Analysis of Dike C at the Kingston   of rebuilding its reputation after
                                     	 Fossil Plant                         the Kingston coal ash spill. In the
                                                                            feature article entitled “Creating
                                     •	 Peer Review of Dike C Buttressing   an Environment of Change,” we
                                     	 at the Kingston Fossil Plant         highlight TVA’s road to redemption.
                                                                            Thus, our cover page is symbolic of
                                     •	 TVA’s Plans for Offsite             TVA envisioning a brighter future on
                                     	 Transportation and Disposal of       its journey to “2020.”
                                     	 Ash from Kingston



                                                                                                                     Richard W. Moore
                                                                                                                     Inspector General




                                                                                       SEMIANNUAL REPOR T | April 1 – September 30, 2010   TVA    5    OIG
                           Special Feature
                           Creating an Environment of Change
                           When President Roosevelt signed TVA into life in May of 1933,
                           along with its creation came thousands of jobs for an area ravished
                           by the Great Depression, desperately needed flood control in the
                           Tennessee Valley and the revitalization of over-farmed lands. TVA
                           not only became a symbol of hope and prosperity, it became a living
                           embodiment of such, even creating lakes that would provide years
                           of family recreation and shared memories for generations to come.
                           This is by now an oft-told story; TVA as a cultural icon credited with
                           bringing “light” both literally and figuratively to the Valley.


                           Even TVA’s critics recognize the         however; this was more than bad              myriad of TVA operations and the
                           emotional aura surrounding TVA that      engineering. This was fundamentally          cultural reading will be different. TVA
                           has resulted in a bank of goodwill       a reflection of what TVA had become.         is a hodgepodge of many cultures.
                           from which TVA has drawn over many       The symptoms had been there for              Therefore, any culture dive at TVA

An Environment of Change   generations. Stop in at any crossroads
                           in rural Tennessee and most graying
                                                                    years; multiple operational divisions
                                                                    operating in silos, mixed messages
                                                                                                                 must include the right metrics to
                                                                                                                 establish a baseline and to measure
                           denizens at the mention of TVA easily    from rotating management, steadfast          change.
                           pull up vivid memories of a harsh life   resistance to top-to-bottom standard
                           in the Valley before Mr. Roosevelt’s     processes, and a skeptical workforce of      TVA will monitor progress through
                           stroke of the pen. For many it’s like    TVA leadership initiatives viewed as         assessment tools called the
                           family; hackles rise when someone        “flavors of the day.” The newly hired        (1) Organizational Health Index
                           else criticizes your own. TVA,           TVA employee was quickly schooled            (OHI) and (2) “Pulse” employee
                           “warts and all,” is our own.             on “the TVA way.” Often that meant           surveys. The OHI will be used as the
                                                                    passively resisting compliance with          primary metric to track progress and
                           TVA has drawn heavily on the bank        management’s policies in favor of the        will allow TVA to report an overall
                           of goodwill over the years but nothing   one-off local plant “way we do things        score externally and share details with
                           came as close to “breaking the bank”     around here.” All of this resulted in a      the TVA Board. It is recommended
                           as the Kingston ash spill in December    dysfunctional corporate personality of       that the instrument be run annually
                           2008. Friend and foe questioned          which the Kingston coal ash spill was        and compared against sector, national,
                           whether TVA was a “good neighbor”        merely a symptom too big to hide.            and public/private benchmarks.
                           or merely a once good idea gone                                                       TVA has also decided to use “Pulse”
                           bad. The tsunami of coal ash had         For simplicity’s sake, we call all of this   surveys to engage organizations and
                           the potential to turn TVA’s name to      “culture.” It is a label and like most       obtain regular feedback. Surveys,
                           mud. The answer to the inevitable,       labels susceptible to great mischief.        which are comprised of a small subset
                           “What went wrong?” is complicated        That is so because any suggestion            of questions from the OHI, will be
                           and is still being sorted out at TVA     that TVA has one definable culture           conducted periodically and sent to
                           today. One thing became clear,           is flat wrong. Stick a probe in the          a population of randomly selected



                                                                                SEMIANNUAL REPOR T | April 1 – September 30, 2010       TVA     7     OIG
 employees. TVA’s Vice President of                                                                                                   TVA fared better in its environmental         Turbulent Times Lead to
 Organizational Effectiveness stated,                                                                                                 performance related to maintaining            a Clear Direction for TVA
 “These surveys will be conducted                                                                                                     certified clean marinas that meet
 every two months to help us get a                                                                                                    federal pollution control standards
 ‘pulse’ of how we are doing in our                                                                                                   and in recycling coal combustion              TVA’s Chief Executive Officer (CEO)          But this is about more than coming
 efforts to improve the organization.”                                                                            Douglas             products. In contrast, their                  recently announced a new vision              up with a catchy slogan. This is
                                                                                                                  Dam
                                                                                                                                      performance lags in the amount of             endorsed by the TVA Board on the             about articulating clear goals and
 Prior to the Kingston ash spill, which                                                                                               air pollutants their coal-fired plants        heels of the Kingston ash spill. The         then meeting them. No branding
 provided the catalyst for TVA’s                                                                                                      produce. TVA, along with other                questions raised by the Kingston ash         or marketing of a vision will make
 cultural review, Inspector General                                                                                                   utilities, is still a polluter based on the   spill necessitated TVA being able to         much difference in the absence of
 Moore had already charged his                                                                                                        nature of its business.                       articulate a clear vision. At the heart of   performance to match. For Ford
                                              on TVA’s customer relations was             “To finally spark the creation of a clean
 employees with the task of measuring                                                                                                                                               the matter is a fundamental question,        Motor Company, it has been the
                                              featured in the spring 2009 edition of      energy economy, we will make the
 TVA’s performance—environmentally                                                                                                    Finally, the report names the five top        “What is TVA?” In market parlance,           buying public who decided if quality
                                              the TVA OIG semiannual report.              investments in the next three years to
 and otherwise—in a way that it had                                                                                                   environmental performance issues              “Does TVA have a ‘brand’?” For               really was “Job 1.” Thus, it will be for
                                              Since that time, the remaining three        double our nation’s renewable energy
 never been measured before.                                                                                                          facing TVA including: (1) the                 example, the American automotive             TVA. Whether TVA’s performance
                                              reports on financial, operational,          capacity…We will put Americans to
                                                                                                                                      increased environmental regulations           giant Ford has as its now well-known         matches its stated vision will be
                                              and environmental performance               work in new jobs that pay well—jobs
 “I thought it was important to create                                                                                                related to sulfur dioxide, nitrogen           brand “Quality is Job 1.” If asked what      judged by a wary public and will not
                                              have been issued. All four reports are      installing solar panels and wind
 a format that would allow us to                                                                                                      oxide, mercury, carbon dioxide and            TVA’s “brand” is, the proverbial “man        turn on the marketing of the vision
                                              featured on the TVA OIG Web site at         turbines; constructing energy efficient
 effectively answer one basic question,                                                                                               coal combustion waste disposal;               on the street” is not likely to recall       itself. Any “selling” of the vision will
                                              www.oig.tva.gov.                            buildings; manufacturing fuel efficient
 ‘How is TVA doing,’ ” Moore noted.                                                                                                   (2) the cleanup of the Kingston Fossil        anything that evokes a clear statement       be viewed in the context of verifiable
                                                                                          vehicles; and developing the new
 “This seemed to me a question that                                                                                                   Plant ash spill; (3) the remediation          of what TVA is. This is also true of         proof of better performance from TVA.
                                              “The release of the environmental           energy technologies that will lead
 an IG’s office, which is charged with                                                                                                of improving stability of the ash and         TVA employees. It has been years
                                              report is particularly significant in the   to even more jobs and more savings,
 providing oversight to an agency,                                                                                                    gypsum impoundments at TVA fossil             since the organization was willing           In the midst of economic uncertainty
                                              aftermath of the Kingston spill as the      putting us on the path toward energy
 should be able to answer about that                                                                                                  plants; (4) the mandated renewable            to commit itself to a publicly stated        and on the precipice of the
                                              review addresses what TVA has done          independence for our Nation and a
 agency.”                                                                                                                             portfolio standards; and (5) the ability      vision. Both the “man on the street”         development of a national energy
                                              to clean and restore the area affected      cleaner, safer planet in the process.”
                                                                                                                                      to maintain TVA’s current low-cost of         and TVA employees can be forgiven            policy, TVA sees a lot of opportunity
                                              by the release,” Moore said. “TVA
 He continued, “While all of our                                                          The TVA OIG’s environmental                 power while meeting environmental             for not being able to recall anything        to become a national leader. To be
                                              committed to ‘make it right,’ and we
 work should cumulatively answer                                                          performance review suggests                 regulations.                                  resembling a vision at TVA.                  specific, its leadership vision coined
                                              found credible evidence that they
 that question, compiling the data in                                                     a noticeable gap between the                                                                                                           “2020 Vision” is to lead the nation in
                                              have done what they said they would
 a series of basic reports would inform                                                   aspirations of the President and TVA’s                                                                                                 improving air quality and increasing
                                              do.” Finally, the report analyzes TVA’s
 stakeholders about TVA’s performance                                                     current performance. We assigned                                                                                                       nuclear production by the year 2020.
                                              overall environmental record prior to
 in a clearer way. If the IG’s office can’t                                               TVA a rating of “fair” for measures                                                                                                    Their vision doesn’t stop there though.
                                              the coal ash release.”
 answer the basic question of ‘How is                                                     related to clean energy and renewable                                                                                                  They also expect to be a leader in the
 TVA doing,’ then I am not sure that                                                      generation. This assessment is                                                                                                         Southeast in energy efficiency.
                                              In light of the current Presidential
 we are truly doing our job.”                                                             achieved primarily because of TVA’s
                                              administration’s focus on utilizing
                                                                                          hydro production efforts, but pending                                                                                                  TVA’s Inspector General, Richard
                                              renewable energy sources to generate
 Consequently, a series of four                                                           standards may remove the use of                                                                                                        Moore, sees a clear tie between TVA’s
                                              power while drastically reducing
 benchmarking reports were conducted                                                      hydro production as counting toward                                                                                                    new vision and the efforts to change
                                              reliance on coal-powered plants, the
 by the TVA Office of the Inspector                                                       a renewable generation source.                                                                                                         TVA’s culture. He said, “Ultimately,
                                              release of this report could be viewed
 General (TVA OIG) that provided                                                          Additionally, hydro production is                                                                                                      TVA’s vision is about performance.
                                              as timely. President Barack Obama
 comprehensive insight into “How TVA                                                      not consistent due to fluctuating                                                                                                      Only organizations with a healthy
                                              has stated:
 is doing.” The first performance report                                                  precipitation levels.                                                                                                                  corporate culture are high performers
                                                                                                                                      TVA electric car



TVA   8     OIG        SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                        SEMIANNUAL REPOR T | April 1 – September 30, 2010        TVA     9     OIG
                                                                                                                                                                                          Allen Fossil
                                                                                                                                                                                                Plant

 in the business world. Therefore,            low-emission electricity generators—       “We say that we’ve got to change our         Greene, Group President, Strategy         Robert Fisher, Senior
 TVA’s chance of realizing the goals of       reducing sulfur dioxides, nitrogen         attention from the rates to the bill. It’s   and External Relations, discussed         Vice President of TVA’s
 ‘2020 Vision’ is directly related to how     dioxides, mercury, particulate and         really about the bill…Most people            the role of TVA’s integrated resource     Fossil Power Group, says
 successful it is at changing its culture.”   carbon dioxide emissions from              can’t tell you the rate they pay, but        plan (IRP) in accomplishing TVA’s         TVA is evaluating other
                                              TVA plants.                                they can tell you how much they spent        vision for being a leading producer       units without advanced
 TVA CEO Tom Kilgore said at an                                                          on electricity last month. So, that’s        of low-cost, cleaner energy. The          environmental controls at                 power generation at the John Sevier
 August 20, 2010, board meeting,              “We’ve spent five billion dollars          what we have to look at—is what was          planning phase for the IRP began          Gallatin, Shawnee, Allen, Colbert,        plant site near Rogersville, Tennessee;
                                              on this, and we can see the efforts        the bill and how can we help them            more than a year ago, she said, and is    John Sevier and Johnsonville to           and $351 million for environmental
                                              succeed,” Kilgore noted. “We had a         deal with that? In accordance with           a common planning tool used in the        determine if it makes sense to install    improvements at coal-fired plants,
                                              recent report this week about how the      that, we set a goal. We said we want to      utility industry to determine how to      controls on those units or idle them.     including converting wet ash storage
                                              air in the Smoky’s is clearing up.”        be at 3.5 percent energy efficiency by       meet future energy needs in the most      Among the considerations are each         facilities to dry. Additionally, the
                                                                                         2015… that is leading the Southeast          reliable and economic way.                plant’s condition and performance,        budget contains $135 million for
                                              Moving on to the nuclear production        and then we would re-evaluate.” The                                                    as well as the impact of future           energy efficiency and demand-
                                              piece of TVA’s vision, Kilgore asked,      energy efficiency Kilgore referred to        TVA’s IRP includes considering            regulatory challenges and the need for    response programs as well as $70
                                              “What is it we want to do? We want         is in terms of energy efficiency savings     significantly reducing coal production    generation at particular locations in     million for economic development.
 “We want to be a leader in low-cost          to lead the nation in new nuclear          from 2010 to 2015 as a percentage            while increasing nuclear, natural gas,    the TVA system.
 clean energy, but we want to be the          capacity,” he answered.                    of sales.                                    renewable resources, energy efficiency                                              In closing, Kilgore emphasized that
 leader in improving our air quality—                                                                                                 and demand response.                      TVA also states that its Bellefonte       this is the time to act. “We wanted to
 the most improved. We want to be the         Kilgore mentioned two of the steps                                                                                                nuclear facility, located in Hollywood,   be focused and we wanted to act,” he
 nation’s leader in increased nuclear         TVA is taking toward completing this                                                    THE FIRST STEPS THAT                      Alabama, continues to be a viable         said. “We know that at least a 1,000
 production. That’s because we see that       goal include “rehabbing” Browns                                                         TVA STATES IT WILL TAKE                   option for TVA’s energy future.           megawatts need to be looked at for
 as being the avenue both to clean air        Ferry Nuclear Plant and constructing                                                    TOWARD COMPLETING ITS                     Construction was halted in 1988,          idling. There could be more. We
 and to low cost.”                            its Watts Bar Nuclear Plant on time                                                     VISION INCLUDE:                           but studies indicate it may be a cost-    know that if we get all of the energy
                                              and on budget. “Our goal is to do                                                       ————————————————                          effective addition to TVA’s generating    efficiency we can get, and we get all
                                                                                         Zero Energy home                             1.	Idling approximately 1,000 	
 Kilgore cautioned that TVA can’t             this not because of jobs, not because                                                                                             fleet, and construction could resume      the affordable renewables, we’re still
 lose sight of its mission stating,           of anything else other than low cost,                                                   	 megawatts of TVA’s older,               by 2012.                                  going to need to increase baseload
                                                                                         The second component to being
 “Our mission is about our rates, our         cleaner energy—to achieve our                                                           	 unscrubbed coal units                                                             power if we’re going to idle some of
                                                                                         a Southeastern leader in energy
 reliability and our reputation. That         vision,” he said.                                                                       2.	Completing the next planning           The fiscal year 2011 budget               the older coal plants. To do that, we
                                                                                         efficiency involves further educating
 is, if you think about any product, the                                                                                              	 phase of its Bellefonte Nuclear         approved at the August 20 meeting         need to move ahead with Bellefonte.
                                                                                         energy consumers about time of use
 thing you are concerned about most           TVA is also planning to demonstrate                                                     	Project                                  includes $248 million for Bellefonte.     And, then energy efficiency speaks
                                                                                         efficiency. “Sometimes they don’t
 is cost and quality. That to us is rates     the first small modular reactor in the                                                  3.	Increasing TVA’s energy efficiency     Engineering design, asset preservation,   for itself. You can see that we are
                                                                                         realize that if we can manage the
 and reliability.” Kilgore continued that     United States. “We think we’re in a                                                     	budget                                   facilities preparation, and regulatory-   aggressive about that and I hope that
                                                                                         demand, it’ll off-set our need to build
 TVA’s responsibility is measured by its      good place to try to do that. “So, we’re   new nuclear capacity,” Kilgore said.                                                   framework development, as well as         we can become even more aggressive
 reputation in how it’s doing and how         going to work with our partners—                                                        TVA plans to idle a total of nine coal    initial contracts for the procurement     as the years go on.”
 people perceive TVA is doing. “So            we’ve talked to ORNL, the lab near                                                      units at Widows Creek, Shawnee            of long-lead-time components, will be
                                                                                         “And then there’s a third thing,” he
 these are the basics. We have to stay        here, and others about trying to do                                                     and John Sevier fossil plants over        funded with this budget allotment.        TVA’s history suggests that mission
                                                                                         added, “and that is that we have to
 focused on that but as we do we want         something like this.”                                                                   the next four to five years. The nine                                               or vision statements like corporate
                                                                                         work on our internal production.
 to tackle these new initiatives.”                                                                                                    units at these three plants do not have   The budget, which includes no base        slogans come and go. Whether the
                                                                                         What are our losses in transmission?
                                              In addressing energy efficiency,                                                        advanced emission-control equipment       rate increase for the fiscal year, also   performance matches the rhetoric
                                                                                         What are our plant efficiencies? Are
 Kilgore detailed some of the steps           Kilgore explained that TVA’s                                                            and, because they are among TVA’s         includes $635 million for construction    is susceptible to quantifiable proof.
                                                                                         there ways that we can actually get
 TVA plans to take in accomplishing           initiative in this area involves helping                                                older units, can be more expensive        of the Watts Bar 2 nuclear facility       The TVA OIG will continue to
                                                                                         better at that and we think there are.”
 their vision starting with significantly     consumers and businesses use energy                                                     to operate.                               in East Tennessee, scheduled for          issue reports aimed at answering the
                                                                                         Following Kilgore at the August
 increasing production from                   more efficiently and save money.           2010 TVA Board meeting, Kim                                                            completion in 2013; $314 million          question, “How is TVA doing.”
                                                                                                                                                                                for construction of natural gas-fired


TVA 10       OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                   SEMIANNUAL REPOR T | April 1 – September 30, 2010     TVA     11        OIG
                          Noteworthy Undertakings
                          TVA OIG Fraud Video Wins a Gold
                          Screen Award of Excellence from the
                          National Association of Government
                          Communicators
                          The National Association of              and local government employees who
                          Government Communicators                 disseminate information within and
                                                                   outside government. Its members
                          (NAGC) recognized the TVA
                                                                   are editors, writers, graphic artists,
                          OIG fraud video as one of the            video professionals, broadcasters,
                          2010 winning entries of the Blue         photographers, information specialists
                          Pencil & Gold Screen Awards              and agency spokespersons.
                          Competition at an awards
                                                                   “The variety of entries and the
                          banquet in Bethesda, Maryland,
                                                                   creativity shown at all levels of
                          on May 17th.                             government has been an inspiration

Noteworthy Undertakings   The NAGC Blue Pencil & Gold
                          Screen Awards Competition salutes
                                                                   this year,” stated Maria VanderKolk,
                                                                   NAGC competitions chair. “From              TVA Inspector General
                                                                   posters to podcasts and Web                 Richard Moore pictured
                          superior communication efforts of        sites to Webinars, government               above receiving the Blue
                          government agencies and recognizes                                                   Pencil & Gold Screen
                                                                   communications continue to keep             Award of Excellence
                          the people who create them. In10sity     pace with ever-changing technology.”        from NAGC President
                          Advertising, Inc., of Knoxville,                                                     Jennifer Lohr
                          Tennessee, worked with the OIG           Blue Pencil & Gold Screen Award
                          to create the award-winning video        categories are designed for writing,
                          located on the TVA OIG Web site at       editing, photography, and published
                          oig.tva.gov.                             products, such as pamphlets, books,
                                                                   newsletters, and other related
                          More than 440 entries in 51 categories   materials. Gold Screen Award
                          were received and judged by a            categories recognize audio-visual
                          professional panel of experts from       and multimedia products, including
                          across the country, which recognized     broadcast and Internet-based products.
                          164 entries as winning submissions.
                          The NAGC is a national not-for-profit
                          professional network of federal, state




                                                                              SEMIANNUAL REPOR T | April 1 – September 30, 2010   TVA 13   OIG
 The TVA OIG Web Site Gets a Makeover                                                                                        availability -- which allows employees
                                                                                                                             to “see” each other just as they would
                                                                                                                                                                         TVA OIG Deputy Legal Counsel
                                                                                                                                                                         David Winstead said of telework,
                                                                                                                                                                                                                    clear win for employers. For example,
                                                                                                                                                                                                                    IBM estimates that teleworking
 We invite you to take a tour of our newly updated Web site at oig.tva.gov.                                                  if they were in the office -- as well as    “With the advent of secure remote          boosts employee productivity about
                                                                                                                             complete and secure access to e-mail        access to our servers, electronic filing   20 percent. British Telecom found
 The Web site makeover was created to modernize the look of our site aligning                                                and phones through TVA OIG’s                systems and a myriad of ways to            productivity rose 31 percent among
 it with the dynamic visual texture of award-winning corporate, non-profit and                                               virtual private network.                    communicate, there is little that must     its 9,000 teleworkers, due to lack of
 government Web sites. It is also designed to make our work more easily accessible                                                                                       be done in a traditional office setting.   disruptions, stress and commuting
 for our stakeholders. The new oig.tva.gov encompasses scrolling pictures, easy-to-                                          “The key for us,” Inspector General         Telework is a boost to efficiency.  I’ve   time. Dow Chemical reported
 navigate menu options and informative links to related Web sites.                                                           Moore explained, “is that we can            reclaimed an hour a day which was          teleworking increased productivity
                                                                                                                             measure the actual work our people          once dedicated to commuting, and it        by 32.5%.”
 Our award-winning fraud video highlights what TVA employees or other                                                        do as opposed to merely taking roll         is easier to focus on the work at hand
 stakeholders can do if they suspect wrongdoing at TVA. You can also sign up for                                             and counting the traditional ‘bodies        by reducing the interruptions inherent
 automatic notifications of any new updates to our site, and you’ll find a newsroom                                          in chairs.’ All of us have been             in a world of cubicles.”
 or “press” section with the latest information released to the media. Rediscover us                                         around long enough to know that
 at the new and improved oig.tva.gov. We think you’ll like what you see.                                                     just because people are ‘present’           Telework may be an option for private
                                                                                                                             doesn’t mean that they are working.         companies, but more federal agencies
                                                                                                                             The nature of the work of an Office         are now required by law to create a
                                                                                                                             of Inspector General is such that it        teleworking policy that allows eligible
                                          Work Performance, Not Place,                                                       can be done from virtually anywhere.
                                                                                                                             The core of our work is audits and
                                                                                                                                                                         employees to telework. Congress
                                                                                                                                                                         has continued to emphasize the
                                          is What Matters at the TVA OIG                                                     investigations that are not in the
                                                                                                                             office; the work is in the field, whether
                                                                                                                                                                         importance of federal agencies taking
                                                                                                                                                                         advantage of the benefits of telework.
                                          Every part of the country has its own culture and the Southeast is no exception.   that is in northern Alabama or in           Section 359 of a statute [Public Law                           President Obama
                                          Informally defined by its collective laid-back attitude, saturated with southern   western Tennessee. Most of us sit at        106-346] passed by Congress in 2000
                                          hospitality and a shared sense of community, East Tennessee remains steadfast      a computer screen all day and where         states:                                    President Obama is also promoting
                                          in Southern tradition. Add to this the common stereotypes associated with          the computer screen is makes little                                                    telework and spoke about it at the
                                          government bureaucracy and you may have what looks like an anomaly at              difference. Across corporate America        “Each executive agency shall establish     March 31 Workplace Flexibility
                                          the Tennessee Valley Authority, TVA OIG. Headquartered in Knoxville,               and within government agencies, the         a policy under which eligible employees    Forum in Washington, D.C. The
                                          Tennessee, the TVA OIG is charged with overseeing TVA, the largest public          actual place work is done is becoming       of the agency may participate in           President commented that embracing
                                          power producer in the nation — providing electricity to nine million people        less important and the quality of the       telecommuting to the maximum               telework and other flexible work
                                          and 650,000 businesses in seven states. To accomplish this significant mission,    work matters more. That’s just good         extent possible without diminished         policies is, “about attracting and
                                          TVA OIG personnel are strategically located throughout TVA’s seven-state           business.”                                  employee performance.”                     retaining top talent in the federal
                                          region and the office has successfully pushed passed perception to evolve                                                                                                 workforce and empowering them
                                          from a traditional government workplace into a highly functioning yet almost       The results of a voluntary survey           According to teleworkexchange.com,         to do their jobs, and judging their
                                          completely mobile workforce. TVA Inspector General Richard Moore has               on telework which the TVA                   a Web site dedicated to the topic of       success by the results that they get—
                                          been leading this charge and is at the forefront of a teleworking movement         OIG conducted of its employees              telework, employee productivity hasn’t     not by how many meetings they
  A TVA OIG employee working                                                                                                 reflect Inspector General Moore’s           diminished, but has actually increased     attend, or how much face-time they
  at a remote location                    that is touching businesses, organizations, and government entities
                                          throughout the nation.                                                             sentiments. Of the 86 employees, who        with the onset of telework. “The           log, or how many hours are spent
                                                                                                                             participated in the survey, the majority    average office-bound worker spends         on airplanes.  It’s about creating a
                                          Inspector General Moore’s mantra is, “Work where you will be most                  indicated that they viewed telework         the equivalent of 30 working days per      culture where, as Martha Johnson
                                          productive.” As a result, OIG personnel are routinely working outside of a         as a success in the office. Employees       year commuting, traveling or engaging      [Administrator of the U.S. General
                                          traditional office setting. This arrangement originally presented a profound       noted, among other things, the              in office chit chat,” according to the     Services Administration] puts it, ‘Work
                                          need to create an IT-generated virtual work environment that had never been        flexibility telework provides and the       Web site. “Converting some of this         is what you do, not where you are.’ ”
                                          built before. Today, this environment includes 24-hour-a-day videoconferencing     enhanced ability to work without the        down time into productive time is a
                                                                                                                             usual office chatter.
TVA 14     OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                              SEMIANNUAL REPOR T | April 1 – September 30, 2010      TVA 15        OIG
                     Executive Overview
                     Following the Kingston ash spill, TVA’s legacy culture, which was
                     identified as a primary contributor to the spill, has been extensively
                     reviewed in our reports. Since our office began these reviews, TVA
                     has publicly committed to changing its culture, but transforming
                     a culture made up of more than 12,000 individuals with their own
                     personal set of beliefs is a formidable endeavor. It is, however,
                     one that TVA has taken on with some assistance from a national
                     consulting company, McKinsey and Company.


                     With McKinsey and Company’s               benchmark’s TVA’s environmental             During this semiannual reporting
                     guidance, TVA has successfully            performance against other top utility       period, our Inspections, Audits and
                     established a program called the          providers in the nation. Our office         Investigations teams successfully
                     Organizational Effectiveness              has been and will remain committed          identified more than $20.5 million in
                     Initiative, designed to create a cross-   to overseeing TVA’s culture-change          recoveries, fines, penalties, potential
                     sectional approach to addressing          initiative as an integral part of its       savings, questioned costs, or funds that

Executive Overview   five elements of major culture
                     change including: realigning the
                                                               operational performance and risk
                                                               mitigation.
                                                                                                           could be put to better use, as seen in
                                                                                                           the chart below.
                     organizational structure, creating
                     a clear and transparent framework
                     for governance and accountability,
                     creating and implementing consistent
                                                                  STATISTICAL HIGHLIGHTS
                                                                              April 1, 2010 – September 30, 2010
                     policies and procedures, developing
                     processes to continually identify          Audit Reports Issued                               41
                     and close skill gaps, and improving        Questioned Costs                                   $2,713,300
                     performance management to increase         Disallowed Costs                                   $1,878,908
                     effectiveness and accountability.          Funds Recovered                                    $2,806,633
                                                                Funds to be Put to Better Use                      $13,695,565
                     While focused on monitoring
                                                                Funds Realized by TVA                              $2,090,600
                     measurable cultural change at TVA,
                     our office has also been intensely         Investigations Opened                              199
                     involved in multiple reviews of            Investigations Closed                              221
                     TVA’s environmental performance,           Recoveries/ Savings/Fines/Penalties                $4,070,029
                     including TVA’s cleanup of the             Criminal Actions                                   16
                     Kingston ash spill as well as several
                                                                Administrative Actions (No. of Subjects)           15
                     other reviews related to Kingston
                                                                Inspections Completed                              9
                     and a comprehensive inspection that




                                                                          SEMIANNUAL REPOR T | April 1 – September 30, 2010       TVA 17         OIG
 Inspections                              In the review of recreational land        Distributor
 The Inspections team completed nine      transactions, we identified several       Audits
 reviews during this reporting period,    processes that needed improvement.        During this semiannual period, the
 including one which is the fourth        The results of the review are found       OIG completed four reviews of TVA
 in a series of benchmarking reports      beginning on page 33 of this report.      distributors including one distributor
 structured to answer the question,       The results of the counterparty credit    that TVA had granted retail rate
 “How is TVA doing” regarding TVA’s       risk and capital projects reviews         setting authority in 2004. We looked
 environmental performance. In            are also found in the Financial and       at classification and metering issues as
 addition, multiple reviews were          Operational Audits section of this        well as other contract requirements.
 focused on various Kingston ash          semiannual report.                        We also examined use of electric
 spill issues.                                                                      funds and cash reserves being used for
                                          Information                               non-electric purposes. Additionally,
                                          Technology (IT)                           our Distributor Audits team looked
                                          Audits                                    at distributor internal controls issues
                                                                                    and identified opportunities for better
                                          During this semiannual period,
                                                                                    oversight of distributors by TVA. The
                                          we completed three audits in the
                                                                                    Distributor Audits section begins on
                                          IT environment on: the final
                                                                                    page 39 of this report.
                                          implementation phases of TVA’s new
                                          asset management system; the OIG’s
                                          biennial assessment of TVA’s controls     Investigations
                                          to protect personally identifiable
                                          information (PII); and a survey of
                                                                                    During this semiannual period,
                                                                                    Investigations collaborated with
                                                                                                                               Office of Inspector General
                                          controls over TVA PII held by private     Audits on contract-related issues. In
                                          third parties. The results of these       this reporting period, we obtained
                                          reviews are found on page 37 of this      two guilty pleas in a fraud case
 Kingston Fossil Plant                                                              with overlapping issues of interest
                                          report.
                                                                                    in a parallel audit. Investigations
 The findings of these reports and
 others are included in the Inspections   Contract Audits                           continued to focus on major fraud
                                                                                    cases and continued working in
 section of this report, beginning on     Our Contract Audits group completed
                                                                                    partnership with various task forces.
 page 25.                                 three preaward audits of cost proposals
                                          and seven compliance audits of
                                                                                    We opened 199 cases and closed 221
                                          contracts with expenditures totaling
 Financial and                            $193 million. Our audits identified
                                                                                    cases during this period. We helped
 Operational                              (1) $13.7 million of inflated proposal
                                                                                    TVA to save or recover more than
                                                                                    $4 million, and our cases resulted in
 Audits                                   costs, and (2) potential overbillings
                                                                                    seven indictments, eight convictions,
 During this semiannual period,           of $2.6 million. The contract audits
                                                                                    and a pretrial diversion. The highlights
 Financial and Operational Audits         section begins on page 37 of this
                                                                                    and results of our work can be found
 completed nine projects including        report.
                                                                                    starting on page 43 of this report.
 reviews of counterparty credit risk,
 recreational land transactions, and
 capital projects.




TVA 18      OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010
                                                                                                                                                                      TVA OFFICE OF THE INSPECTOR GENERAL



                                                                                                                                                                          Richard W. Moore
 Office of Inspector General                                                                                                                                               Inspector General

                                                                                                                                                                                                                                   Ben R. Wagner
 The OIG’s most important resources are its people. Our team is made up of experienced                                                                                                                                           Deputy Inspector General


 auditors, investigators, and administrative staff. The OIG is an independent office within TVA
 and is headquartered opposite TVA in TVA’s East Tower, overlooking downtown Knoxville.                                                                                   Charles A. Kandt
                                                                                                                                                                             Legal Counsel
 Inspector General Richard Moore believes that in order to effectively provide oversight to TVA,
 we must be strategic in our placement of OIG employees. As such, the IG has worked to ensure                                                                                                                                    W. David Winstead
                                                                                                                                                                                                                                  Deputy Legal Counsel
 that our office has a presence at or near all major TVA offices throughout the Tennessee Valley.

 The OIG has a major satellite
                                           Administration
 office in the Edney Building in
                                           The administrative section works
 Chattanooga, Tennessee, where                                                                                                                                                 ADMINISTRATION MANAGEMENT TEAM
                                           closely with the IG, Deputy IG, and
 the Inspections unit and several
                                           Assistant IGs to address the day-to-day
 investigators are located. There are                                                 AUDITS AND INSPECTIONS               MANAGEMENT TEAM
                                           operations of the OIG and to develop
 also staffed field offices at the Watts                                                                                                                                                             Jill M. Matthews
                                           policies and procedures designed to                                                                                                                     Assistant Inspector General
 Bar Nuclear Plant in Tennessee;
                                           drive and enhance productivity in                                                           Robert E. Martin
                                                                                                                                                                                                    (Acting), Administration
 and also in Nashville, Tennessee;
                                           achieving office goals. Responsibilities                                                 Assistant Inspector General
 Huntsville, Alabama; and Mayfield,                                                                                                    Audits & Inspections
                                           include operations for personnel                                                                                                                                                                                     Kay T. Myers
 Kentucky.                                                                                     Gregory C. Jaynes                                                                                                                                            Manager, Human Resources
                                           administration, budget and financial               Deputy Assistant Inspector
                                           management, purchasing and contract                  General, Inspections
 As of September 30, 2010, the OIG                                                                                                                                                                 Stefanie D. Hoglund
                                           services, facilities, conferences,                                                                                                                         Public Affairs Officer
 had a total staff of 104. The Audits
                                           communications, and information                                                             Jill M. Matthews
 and Inspections units are composed                                                                                                 Deputy Assistant Inspector
                                           technology.                                                                              General, Audits & Support
 of 64 individuals, the Investigations
 unit includes 29 individuals, and the
 Administrative unit is comprised of
                                           Legal
                                           The OIG legal department
 11 individuals.                                                                                                                                                               INVESTIGATIONS MANAGEMENT TEAM
                                           monitors existing and proposed
                                                                                               John H. Barrow III                       Phyllis R. Bryan
                                           legislation and regulations that                         Project Manager                      Director, IT Audits
 The number of personnel located                                                                    Emerging Issues
                                           relate to the mandate, operations,
 at each staffed office is as follows:                                                                                                                                                            John E. (Jack) Brennan
                                           and programs of the OIG and/or TVA.                                                                                                                     Assistant Inspector General
 Knoxville-78, Watts Bar Nuclear                                                                                                                                                                          Investigations
                                           In addition, this group provides legal                                                                                                                                                                            Nancy J. Holloway
 Plant-2, Chattanooga-17, Nashville-2,                                                                                                                                                                                                                       Special Agent in Charge
                                           advice as needed for administrative,
 Huntsville-4, and Mayfield,
                                           audits, inspections, and/or                              Louise B. Beck                     Lisa H. Hammer
 Kentucky-1.                                                                                    Audit Quality Manager             Director, Financial & Operational
                                           investigative projects. The OIG Legal                                                                Audits
                                           Counsel also coordinates government                                                                                                                        Paul B. Houston
                                           relations for the office.                                                                                                                                Special Agent in Charge




                                                                                                                                      David P. Wheeler
                                                                                                                                     Director, Contract Audits




TVA 20       OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                     SEMIANNUAL REPOR T | April 1 – September 30, 2010                          TVA 21         OIG
 Audits and                               performance audits of TVA programs          •	 IT Audits has lead responsibility                          Types of Audit and Inspection Issues
                                          and operations, providing a landscape           for audits relating to the security
 Inspections                              view of the organization’s overall fiscal       of TVA’s IT infrastructure,
 The Audits and Inspections teams
                                          and operational health.                         application controls, and                    Information                            Operational Audits                            Contract Audits
 perform a wide variety of engagements
                                                                                          general controls associated with          Technology Audits                          • Operational Inefficiency                      • Inflated Proposals
 designed to promote positive change                                                                                                   • Unauthorized Access                • Not Achieving Intended Results
                                          This dynamic team is made up of                 TVA systems. This team also                                                                                                       • Contract Overpayments
 and provide assurance to TVA                                                                                                           • Inadequate Controls                    • Inferior Performance
                                          four departments—Contract Audits,               performs operational reviews of                                                                                                    • Inferior Performance
 stakeholders. Based upon the results                                                                                                                                              • Legal/Regulatory
                                          Distributor Audits, Financial/                  the effectiveness of IT-related              • Lack of Data Integrity                                                                      • Fraud
 of these engagements, Audits and                                                                                                                                                   Noncompliance
                                          Operational Audits, and IT Audits.              functions.                                           • Fraud                                   • Fraud
 Inspections make recommendations
 to enhance the effectiveness and
                                          •	 Contract Audits has lead                 The Inspections team,
 efficiency of TVA’s programs and
                                              responsibility for contract             based in Chattanooga, serves a unique           Financial Audits                        Distributor Audits                                Inspections
 operations.
                                              compliance and preaward audits.         function. This team was created when         • Internal Control Deficiencies              • Contract Noncompliance                  • Internal Control Deficiencies
                                              In addition, this team performs         Inspector General Moore recognized              • Material Misstatements                   • Misstatement of Power                     • Operational Inefficiency
 The teams use an impact- and
                                              reviews of TVA’s contracting            the need for a team that could provide           • Legal Noncompliance                          Sales to TVA                            • Policy Noncompliance
 risk-based approach to develop an
                                              processes and provides claims           a quick, yet thorough review of TVA                      • Fraud                                   • Fraud                                       • Fraud
 annual work plan. The teams’ plan
                                              assistance as well as litigation        functions. We refer to our Inspections
 considers TVA’s strategic plans,
                                              support.                                group as the “Light Cavalry.” By
 major management challenges,
                                                                                      performing limited-scope reviews, this
 TVA’s enterprise risk management
                                          •	 Distributor Audits has lead              team can complete reviews quicker         Investigations
 process, and other input from
                                              responsibility for contract             than traditional audits.
 TVA management. The planning
                                              compliance reviews of TVA’s 	                                                     The Investigations team                   CONTRACT FRAUD —                            ILLEGAL HACKING INTO
 model also evaluates each potential                                                                                            is vigilant in its search for activity    Defrauding TVA through its                  TVA COMPUTER SYSTEMS —
                                              distributors. This group assesses 	     In accordance with the Quality
 engagement from the standpoint                                                                                                 related to fraud, waste, and abuse in     procurement of goods and services.          Accessing a computer without
                                              compliance with the terms of the        Standards for Inspections, the
 of materiality (i.e., costs or value                                                                                           and of TVA programs and operations.                                                   authorization or exceeding authorized
                                              power contracts between TVA 	           objectives of the Inspections team
 of assets), potential impact,                                                                                                  This highly skilled team performs         THEFT OF GOVERNMENT                         access.
                                              and its distributors. In addition, 	    include providing a source of
 sensitivity (including public and/                                                                                             investigative activity in accordance      PROPERTY AND SERVICES —
                                              this group reviews TVA processes        factual and analytical information,
 or congressional interest), and                                                                                                with the Quality Standards for            Theft of TVA property and “schemes          WORKERS’ COMPENSATION
                                              related to its regulatory 		            monitoring compliance, measuring                                                                                                FRAUD —
 the likelihood it will result in                                                                                               Investigations. The investigators         to defraud…designed to deprive
                                              responsibilities of distributors.       performance, assessing the efficiency                                                                                           Includes employee fraud, medical
 recommendations for cost savings or                                                                                            maintain liaison with federal and         individuals, the people, or the
                                                                                      and effectiveness of operations, and/or                                                                                         fraud, premium fraud, and employer
 process improvements. The result                                                                                               state prosecutors and file a report       government of intangible rights, such
                                          •	 Financial/Operational Audits has 	       conducting inquiries into allegations                                                                                           fraud, most often a false claim of
 of the OIG audits and inspections                                                                                              with the Department of Justice            as the right to have public officials
                                              lead responsibility for oversight of    of fraud, waste, abuse, and                                                                                                     disability to receive benefits.
 planning process is a focus on those                                                                                           whenever the OIG has reason to            perform their duties honestly.”
                                              TVA’s financial statement audit         mismanagement.
 issues of highest impact and risk of                                                                                           believe there has been a violation of
                                              and related services performed 	                                                                                                                                        EMPLOYEE MISCONDUCT —
 fraud, waste or abuse. This focus                                                                                              federal criminal law. Our investigators   ENVIRONMENTAL CRIME —
                                              by TVA’s external auditor, reviews 	    Audit and inspection findings vary                                                                                              Generally includes misuse of
 extends to the field of information                                                                                            partner with other investigative          Any act which violates an
                                              of TVA’s internal controls related 	    depending on the objectives of the                                                                                              TVA furnished equipment, travel
 technology and risk assessment related                                                                                         agencies and organizations on special     environmental protection statute.
                                              to financial reporting, operational 	   project. Issues can be generalized                                                                                              voucher fraud, and a multitude of
 to a potential malicious or other                                                                                              projects and assignments, including
                                              efficiency, and compliance 		           into specific categories depending on                                                                                           miscellaneous matters.
 intrusion of TVA’s IT infrastructure.                                                                                          interagency law enforcement task          HEALTH CARE FRAUD —
                                              with laws and regulations as well 	     the type of engagement performed.
                                                                                                                                forces on terrorism, the environment,     The intentional misrepresentation
                                              as operational reviews to assess        The following graphic shows some
 The Audits team, based in                    the 	results and economy and            representative examples of issues         and health care. Our investigative        of health care services, expenses,
 Knoxville, generates and oversees                                                                                              workload includes the following major     billings, needs, or coverage that results
                                              efficiency of TVA programs.             commonly reported.
 comprehensive financial and                                                                                                    categories:                               in unauthorized payments or other
                                                                                                                                                                          benefits.


TVA 22      OIG      SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                SEMIANNUAL REPOR T | April 1 – September 30, 2010     TVA 23          OIG
                             Summary of Representative Inspections
                             During this period, Inspections completed nine reviews. Specifically, Inspections completed reviews
                             related to the Kingston ash spill, including reviews of the clean-up and recovery efforts, transportation
                             and disposal of ash, long-term environmental recovery plans for Kingston, the stability analysis
                             of Dike C, and Dike C buttressing. It also completed reviews of TVA records retention and TVA’s
                             environmental performance. With the assistance of a contractor, Inspections performed a peer review
                             of the safe use assessment of Wheeler Hydro Unit 1. Additionally, Inspections performed a benchmark
                             study of the Inspector General Criminal Investigator Academy to assist the Council of Inspectors
                             General on Integrity and Efficiency in improving its training program for investigators.

                             REVIEW OF TVA’S                                ponds, and improve ash management            The Global Reporting Initiative
                             ENVIRONMENTAL                                  practices. More importantly, TVA             framework specifies the principles
                             PERFORMANCE RESULTS                            has taken effective steps to address         and indicators that organizations
                             ————————————————                               the cultural problems that led to the        can use to measure and report their
                             This review was the fourth in a series         spill, and TVA is currently engaged          economic, environmental, and social
                             of reviews to benchmark TVA’s                  in initiatives to address culture issues     performance.
                             performance in key areas and answer            that may impact every segment of TVA
                             the question, “How is TVA doing in             operations.                                •	 Through the production of energy by

Representative Inspections
                             regard to environmental performance.”                                                       its coal-fired plants, TVA produces
                             In conducting this review, we assessed         Since culture is a reflection of a           a large amount of air pollutants.
                             environmental performance, including           collective corporate mindset, part of        While it has made advances in the
                             key performance measures; evaluated            the culture change that is occurring at      reduction of air emissions over the
                             TVA’s performance relative to available        TVA involves a review of compliance          last several decades, TVA, along with
                             benchmark information; and identified          processes, along with education of           other utilities, is still a polluter based
                             key management challenges that                 TVA employees designed to alter the          on the nature of its business. TVA has
                             could affect how successful TVA is in          corporate mindset. This change has           incurred high capital investments to
                             achieving these strategic objectives.          implications for how TVA employees           comply with evolving environmental
                                                                            see environmental compliance issues          requirements, and the future costs of
                             As part of this review, OIG included a         and is perhaps TVA’s single largest          compliance and pending legislation
                             summary evaluation of TVA’s response           challenge in becoming a more                 addressing air pollution and climate
                             to the December 22, 2008, Kingston ash         responsible environmental steward.           change will continue to put upward
                             spill. The ash spill released 5.4 million                                                   pressure on power rates.
                             cubic yards of coal ash containing             Our review found that overall TVA’s
                             a number of toxic substances into              results in the area of environmental         We assigned TVA a rating of “fair”
                             the environment. As we reported                performance were mixed and can be            for measures related to clean energy
                             previously, the culture surrounding            summarized as follows:                       generation and renewable generation.
                             the management of coal ash at TVA                                                           This assessment is achieved in large
                             reflected a culture that coal ash was          •	 TVA recently changed its approach         part due to TVA’s hydro production
                             unimportant and relegated to the status          to measuring its environmental             efforts. However, pending standards
                             of garbage at a landfill. There was very         performance. It now measures 12            may eliminate the use of hydro
                             little recognition of the potential hazard       industry-accepted metrics identified       production as a renewable generation
                             to the public and the environment.               by the Global Reporting Initiative         source, and hydro production is not a
                             TVA is now taking steps to clean up              and six measures for which there           consistent source of generation due to
                             the spill, assess the stability of other ash     are not good industry benchmarks.          fluctuating precipitation.


                                                                                        SEMIANNUAL REPOR T | April 1 – September 30, 2010        TVA 25           OIG
   Compared to its peers, TVA performs       REVIEW OF TVA’S KINGSTON                   into time critical (Phase I) and non-time   TDEC to manage and facilitate              Inc. (Marshall Miller) to conduct a peer      contended that Stantec’s evaluations
   in the middle of the pack in measures     ASH SPILL CLEAN-UP AND                     critical (Phase II) activities. The         the cleanup, and (4) coordinated with      review of the report entitled “Report of      overstated the factor of safety for global
   such as number of “Reportable             RECOVERY EFFORTS                           time critical work of removing the          EPA and TDEC to provide continuous         Geotechnical Exploration and Slope            slope stability along more critical
   Environmental Events,” amount of          ————————————————                           ash from the Emory River’s main             environmental monitoring.                  Stability for Dike C” (Dike C Report)         reaches of the dike system and were
   environmental fines, generation of        On December 9, 2009, Richard W.            channel and from water directly east                                                   prepared by Stantec.                          more a representation of the site-wide
   low-level radioactive waste, and office   Moore, TVA Inspector General, testified    of the ash storage site was essential       We also found TVA has made a                                                             average conditions. Marshall Miller
   materials recycled. However, TVA          before the Subcommittee on Water           to: reducing the likelihood it would        concerted effort to address restoration    In summary, it is Marshall Miller’s           was not suggesting that a stability
   lags other utilities in the removal of    Resources and Environment, U.S.            move downstream, restoring water            and regain public trust. Specifically,     opinion that Stantec generally                failure was imminent under the existing
   polychlorinated biphenyl equipment.       House Committee on Transportation          flow, reducing flood risk and allowing      TVA immediately established a process      performed a reasonable scope of               conditions, but rather that the margin
   TVA performs comparatively well           and Infrastructure, about our assessment   recreation to resume in certain areas.      to handle real and personal property,      investigation for the portion of              of safety along certain sections of the
   in the categories of amount of coal       of TVA’s Kingston ash spill clean-up       The non-time critical ash consists of       loss of business, and mileage claims. In   Dike C covered by its report and              dike system was less than suggested by
   combustion products recycled              and recovery efforts. In his testimony,    the ash in the embayments and on land       addition, OIG found TVA’s adjudication     applied appropriate investigative             the Stantec-calculated factor of safety
   and percentage of certified clean         Mr. Moore stated that the TVA              west of Dike 2.                             of the claims was consistent and in        methods and evaluation techniques.            of around 1.5 for deep-seated failures.
   marinas participating annually in         OIG will measure and track TVA’s                                                       accordance with approved processes         However, Stantec applied site-wide            The significance of this observation
   the Tennessee Valley Clean Marina         progress in addressing the findings and    The objectives of this review were to       and guidelines. Other actions TVA has      characterization and application of           is dependent on the approach and
   Initiative.                               recommendations in our reports and         assess TVA’s progress in: the cleanup       taken to restore the community and         shear strength parameters even though         conservatism that is applied in the
                                             committed to a follow-up review of         of the ash, returning the area to           regain public trust have included:         areas of significantly weaker material        design of more immediate stability
 •	 Our report discusses the top five        reparations to victims.                    its previous condition, reparations                                                    were identified. In addition, there           enhancements to the dike system (i.e.,
   challenges that affect the area of                                                   to victims, and restoration of the          •	 Committing $43 million to economic      was a lack of information on seepage          the interim stability enhancements that
   environmental performance for             The approximate one billion gallons of     community. TVA’s actions to date              development in Roane County.             and material conditions nearer the            might be designed based on drained
   TVA, including the (1) increased          coal combustion waste slurry covered       indicate it is committed to cleaning up                                                downstream toe of Dike C, which               analyses).
   environmental regulations related         about 300 acres, of which eight were       the Kingston ash spill and restoring the    •	 Initiating projects to improve          caused additional uncertainty about the
   to sulfur dioxide (SO2), nitrogen         privately-owned lands not owned            area to its pre-spill condition. TVA has      community infrastructure, lessen the     Stantec study, its associated conclusions     To address this report, TVA
   oxide (NOx), mercury, carbon              or managed by TVA. The impacts             also provided reparations to the victims      impact of recovery operations on the     and opinions about the Dike C                 management requested Stantec and
   dioxide (CO2), and coal combustion        of the coal ash sludge and resulting       and is making progress toward restoring       public, and promote Roane County.        conditions.                                   AECOM review and respond to the
   waste disposal; (2) cleanup of the        tsunami destroyed and/or damaged           the community to its previous state. We                                                                                              findings of the Marshall Miller report.
   Kingston Fossil Plant (KIF) ash spill;    the railroad adjacent to the plant, real   found clean-up efforts are proceeding       •	 Promoting information sharing on        The in-situ and laboratory testing            TVA management and its contractors
   (3) remediation or improving              and personal property, and community       judiciously, and specific TVA actions         coal ash research.                       programs applied appropriate and              disagreed with many of the findings
   stability of the ash and gypsum           infrastructure—including roads and         not only appropriately address                                                         complementary suites of laboratory            and recommendations in the report.
   impoundments at TVA fossil plants;        utilities. TVA took immediate and          restoration but also show a commitment      •	 Implementing various mechanisms         tests to characterize the dike fill, native   Marshall Miller provided additional
   (4) mandated renewable portfolio          ongoing actions to address the needs       to regain public confidence.                  to improve communications, address       foundation soils, and ash materials           comments in response to AECOM and
   standards; and (5) ability to maintain    of those affected, clean up the spill,                                                   inquiries, and provide information to    in the primary areas of interest for          Stantec responses.
   TVA’s current low-cost of power while     and protect human health and the           Specifically, we found comprehensive          the Kingston residents and media.        Dike C. The available body of site-
   meeting environmental regulations.        environment. TVA also took action and      efforts have been completed and are still                                              specific data was considerable; however,      In summary, Marshall Miller stands by
                                             made commitments to restore the area       ongoing pertaining to clearing the spill.   •	 Providing independent health            Stantec applied a site-wide perspective       the findings in its report and disagrees
                                             and regain public confidence.              TVA is making significant progress in         screenings.                              in the characterization and application       with some of the methodologies used
                                                                                        the cleanup and continues to consider                                                  of shear strength properties for their        by Stantec to evaluate Dike C.
                                             TVA is working with the Environmental      human health and the environment            PEER REVIEW OF THE                         analyses of the five evaluated slope          However, Marshall Miller surmised
                                             Protection Agency (EPA) and the            in the recovery. We found that TVA          STABILITY ANALYSIS OF                      stability sections along thousands of feet    that the Dike C improvement planned
                                             Tennessee Department of Environment        (1) met its goal of removing the time       DIKE C AT THE KINGSTON                     of containment dike.                          actions referenced in the Stantec and
                                             and Conservation (TDEC) to                 critical ash necessary to reopen the        FOSSIL PLANT                                                                             AECOM responses address or will
                                             manage the cleanup of the Kingston         Emory River by the end of May 2010,         ————————————————                           The Stantec approach underutilized            address most of their findings and
                                             ash spill in accordance with the           (2) implemented a removal plan for          In response to the KIF ash spill, TVA      the exploration data and may have             recommendations. The remaining
                                             Comprehensive Environmental                non-time critical ash in spring 2010 to     contracted with Stantec Consulting         masked the existence and/or diminished        findings and recommendations not
                                             Response, Compensation and Liability       facilitate a smooth transition between      Services, Inc. (Stantec) to conduct a      the significance of weak soil layers, in      fully addressed were not considered
 The Emory River where                       Act (CERCLA). The major recovery           clean-up phases, (3) developed a good       stability analysis of the remaining dike   particular, critical reaches of the dike      substantial and should not affect the
 cleanup has occurred                        work necessary at Kingston is divided                                                  (Dike C) at Kingston. The TVA OIG
 and the river reopened                                                                 working relationship with the EPA and                                                  system. Consequently, Marshall Miller         stability of the dike.
                                                                                                                                    retained Marshall Miller & Associates,



TVA 26       OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                   SEMIANNUAL REPOR T | April 1 – September 30, 2010          TVA 27            OIG
 PEER REVIEW OF DIKE C                         critical sections was not performed,     hired Marshall Miller to review the        of excess sedimentation, debris build-       REVIEW OF THE LONG TERM                    Evaluation/Cost Analysis or more
 BUTTRESSING                                   so the relative improvement in           Transportation and Disposal Plans          up, or other potential adverse impacts       ENVIRONMENTAL RECOVERY                     commonly known as, the EE/CA.
 ————————————————                              stability afforded by the Stage 1        prepared by TVA in response to the         that could be associated with a landfill;    PLAN FOR KINGSTON
 In response to the KIF ash spill, TVA         Buttress Construction was not clearly    ash spill. In addition, Marshall Miller    and (5) leachate (the liquid produced in     ————————————————                           The non-time critical ash consists of
 contracted with Stantec to conduct a          documented.                              was asked to determine if appropriate      a landfill from decomposition of waste)      Marshall Miller was engaged by the         the ash in the embayments and on
 stability analysis of the remaining dike                                               steps were being taken to minimize the     management and disposal practices            TVA OIG to review the adequacy             adjacent land. The time critical ash
 (Dike C) at Kingston. After the analysis    •	 The design shows a transition to        environmental impacts and if regulatory    appeared to minimize, to the extent          and completeness of environmental          consisted of ash in the Emory River’s
 was conducted, Stantec developed              steeper configuration of the outslope    requirements were being met.               practicable, the potential for off-site      recovery plans prepared by TVA in          main channel and in the waters
 a multi-stage stabilization plan that         of the buttress between two points                                                  exposure from ash constituents.              response to the Kingston ash spill. On     directly east of the site’s ash-storage
 generally consisted of constructing an        that will diminish the stabilization     In summary, Marshall Miller found                                                       May 11, 2009, TVA entered into an          area and was designated time critical
 aggregate buttress against the riverside      benefits of the buttress.                that TVA was taking appropriate steps      While Marshall Miller did not find           Administrative Order and Agreement         because removing it quickly reduced
 of Dike C.                                                                             to minimize the environmental impacts      significant deficiencies in the operation    on Consent with the EPA Region IV,         the chance that the ash would move
                                             •	 The Stage 1 Buttress Construction       of transporting ash from KIF to the        of the landfill, several areas were noted    which directed all response activities     downstream, restored flow, reduced
 The OIG retained Marshall Miller to           was only evaluated presuming             Arrowhead Landfill in Perry County,        where improvements could be made,            under CERCLA.                              flood risk, and allowed for recreation
 conduct a peer review of the Stantec          drained conditions, so the stability     Alabama. Furthermore, no significant       including the following:                                                                to resume in certain areas. There were
 stability calculations and construction       situation under possible load cases      deficiencies in documents reviewed,                                                     The Administrative Order and               some discrepancies noted in the Human
 documents for the Stage 1 Construction–       that could prompt undrained              regulatory requirements, or in the         •	 The Rail Yard and Landfill Best           Agreement on Consent imposed               Health Risk Assessment, with regard
 Segment “D” portion of the Dike C             behavior of the dike and foundation      landfill operations were found.              Management Practice Plans did not          requirements for TVA to develop short      to certain selected input parameters,
 Buttress at the KIF. It is Marshall           materials (rate of construction, rapid                                                effectively describe and document          and long-term plans for mitigating         such as toxicity and exposure factors.
 Miller’s opinion that the planned Stage 1     drawdown, and earthquake/seismic                                                      the actual activities, procedures,         off-site spill impacts through a process   However, since the selected alternative
 Construction – Segment “D” portion of         cases) is unknown at this time.                                                       equipment and operations that were         of continued investigation, analysis,      included the removal of all ash, any risk
 the Dike C Buttress produces stability                                                                                              observed during Marshall Miller’s site     and evaluation to determine the extent     associated with leaving the ash in place
 enhancements that are sufficient based      Marshall Miller stated that the                                                         visit on April 21, 2010.                   of affected media (media includes          was reduced, and revisions to the risk
 on Stantec’s drained slope stability        planned Stage 1 Buttress Construction                                                                                              air, water, and sediment) and assess       assessment were not necessary. TVA
 analyses.                                   produces stability enhancements                                                       •	 The Spill Prevention Control and          potential impacts to humans, plants,       has committed to incorporating the
                                             and also addresses issues of “piping”/                                                  Countermeasures Plans appeared             and animals. The Administrative            findings in future human health risk
 Marshall Miller also contends that the      internal erosion, surface erosion, and                                                  to provide adequate protection;            Order and Agreement on Consent also        assessments.
 Stage 1 Construction will satisfactorily    scour in buttressed areas. Therefore,                                                   however, the plans did not include         required that TVA address the short and    Kingston Fossil Plant
 address issues of “piping”/internal         the significance of the above                                                           spill volume estimates for certain spill   long-term management of the coal ash,
 erosion, surface erosion, and scour         Marshall Miller observations and                                                        scenarios, secondary containment for       including TVA’s clean-up of ash from
 over those Dike C areas that will be        recommendations is dependent on                                                         mobile tankers, and locations for spill    off-site areas and final containment
 covered with an aggregate filter and        the approach and conservatism that is      The removed ash is loaded to                 kits and equipment.                        within the original confines of the KIF
 be buttressed. However, Marshall            applied in the design of the final         rail cars for transport to a                                                            facility.
                                                                                        landfill
 Miller found that the specific design       closure plan.                                                                         •	 Marshall Miller noted one of the
 bases/criteria, relative improvement                                                                                                National Pollutant Discharge               Generally, Marshall Miller found
                                                                                        Specifically, Marshall Miller found at
 in stability, and reasoning for certain     TVA management agreed with our                                                          Elimination System discharge points        no significant deficiencies in any of
                                                                                        the Arrowhead Landfill that the (1) ash
 variations in the buttress configuration    findings and recommendations and                                                        was located at a point that could be       the proposed alternatives, including
                                                                                        removal and rail car wash systems and
 were not well documented in the             plans to take corrective actions.                                                       affected by runoff from land that was      the selected alternative for the
                                                                                        procedures appeared to be adequate for                                                                                             The selected alternative called for
 materials supplied for review.                                                                                                      not part of the landfill. This issue       removal of non-time critical ash. The
                                                                                        minimizing the potential for residual                                                                                              all ash to be excavated from the
                                             REVIEW OF TVA’S PLANS FOR                                                               had already been identified and was        documents prepared by TVA appear
                                                                                        ash to enter the nearby surface water;                                                                                             embayment and disposed onsite
 Marshall Miller’s key observations from     OFFSITE TRANSPORTATION                                                                  currently being addressed by the           to be substantially in compliance with
                                                                                        (2) storm water management practices                                                                                               within the Dredge Cell, which would
 reviewing the documents related to the      AND DISPOSAL OF ASH                                                                     landfill owner.                            applicable regulatory requirements
                                                                                        appeared to be effective for segregating                                                                                           be closed in place. This alternative
 Segment “D” portion of the Dike C           FROM KINGSTON                                                                                                                      stated in the Administrative Order and
                                                                                        and managing storm water runoff;                                                                                                   included closure of the ash pond
 Buttress at the KIF are as follows:         ————————————————                                                                      TVA management agreed with our               Agreement on Consent between TVA
                                                                                        (3) roads, work, and vegetated areas                                                                                               concurrent with closure of the Dredge
                                             A contract was awarded to the                                                         findings and recommendations and has         and the EPA and meet the removal
                                                                                        appeared to be maintained such                                                                                                     Cell. Marshall Miller reviewed each of
 •	 A direct comparison of slope stability   Arrowhead Landfill in Perry County,                                                   taken or plans to take corrective actions.   action objectives outlined in the
                                                                                                                                                                                                                           the proposed remediation alternatives
                                                                                        that sediment runoff is minimized;
   factors of safety for the existing and    Alabama, for disposal of ash from                                                                                                  Non-Time Critical Removal Action
                                                                                        (4) surface water features in the                                                                                                  for compliance with the removal action
   buttressed dike configurations at         the KIF ash spill. The TVA OIG                                                                                                     Embayment/Dredge Cell Engineering
                                                                                        immediate vicinity did not exhibit signs                                                                                           objectives outlined in the Administrative



TVA 28       OIG        SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                  SEMIANNUAL REPOR T | April 1 – September 30, 2010       TVA 29         OIG
 Order and Agreement on Consent.              REVIEW OF TVA RECORD                         In addition, we found that TVA                 Additionally, another area was found      The IG Academy was officially             CIGIE consider the following
 The objectives addressed the long-           RETENTION                                    plans to replace its current electronic        to have unlocked cabinets which           established in February 1994 by a         resource needs, among others, for the
 term protection of the environment by        ————————————————                             management system, which should                included PII.                             Memorandum of Understanding               IG Academy:
 minimizing the possibility for exposure      At the request of TVA’s CEO, we              increase the efficiency and effectiveness                                                between the Federal Law Enforcement
 of humans, plants, animals, and water        initiated a review of records retention      of records management. However, areas        TVA management agreed with our              Training Center (FLETC) and the           •	 Staffing or access to staffing
 (ground and surface) to the ash.             policies and practices at TVA. TVA           for improvement existed in the TVA           findings and recommendations and            President’s Council on Integrity and        to conduct timely updates of
                                              Records Management Program is                Chattanooga Office Complex (COC) in          plans to take corrective actions.           Efficiency (PCIE), which was the            curricula and lesson plans, assist in
 While Marshall Miller found no               conducted in accordance with guidance        records management, records retention,                                                   predecessor to CIGIE. The training          instructional systems design, and
 significant deficiencies in any of the       issued by the National Archives and          disposal of records and material, the        INSPECTOR GENERAL                           academy is located at FLETC in              teach courses.
 proposed alternatives, the following         Records Administration.                      maintenance and upkeep of office             CRIMINAL INVESTIGATOR                       Glynco, Georgia. CIGIE inherited the
 observations were noted:                                                                  space, and the identification of records.    ACADEMY (IG ACADEMY)                        IG Academy from the PCIE.                 •	 IT and administrative support as well
                                              TVA is required by 44 U.S.C. § 3101,         Specifically, we found:                      ————————————————                                                                        as a means to address a legal support
 •	 Both the EE/CA and Non-Time               titled “Records management by agency                                                      The Council of Inspectors General           The Professional Development                deficiency.
   Critical Removal Action Embayment/         heads; general duties,” to “prepare          •	 Business units were keeping records       on Integrity and Efficiency (CIGIE)         Committee of CIGIE initiated a
   Dredge Cell Action Memorandum              and preserve records containing                in hardcopy format with long               was statutorily established as an           staffing review of the IG Academy         •	 An electronic learning management
   (Action Memorandum) were                   adequate and proper documentation              retention times that could possibly        independent entity within the executive     which the TVA OIG conducted. The            system which provides, among other
   intended to provide only a conceptual      of the organization, functions, policies,      be kept more efficiently off site or       branch of the federal government by         review benchmarked the CIGIE IG             benefits, program administration,
   design of each of the three                decisions, procedures and essential            in electronic format. In addition,         “The Inspector General Reform Act of        Academy against other law enforcement       including document management
   alternatives. Since an alternative         transactions of the agency and designed        material not part of the official record   2008,” P.L. 110-409, to:                    academies and found a great disparity       and storage; tracking and reporting
   had been selected, a more detailed         to furnish the information necessary to        was often kept beyond its useful life.                                                 in the resources being provided to          of training programs; a medium
   design would be needed, along              protect the legal and financial rights of                                                 •	 Address integrity, economy, and          the CIGIE IG Criminal Investigator          for providing classroom and online
   with revised sampling plans for            the government and of persons directly                                                      effectiveness issues that transcend       Academy as compared to other law            events, including e-learning
   monitoring potential environmental         affected by the agency’s activities.” As a                                                  individual government agencies.           enforcement training facilities. We         programs, and sharing of training
   impacts during excavation of the           federal agency, TVA is responsible for                                                                                                found, for example, a definite lack of      content.
   ash and closure of the Dredge Cell.        ensuring that any information providing                                                   •	 Increase the professionalism and         resources for the IG Academy, which
   Additionally, the EE/CA provided           official documentation of TVA                                                               effectiveness of personnel by             impacts the learning methodologies        Remarkably, the IG Academy has been
   limited detail on the long-term            programs and activities is identified,                                                      developing policies, standards,           utilized and the overall quality of the   able to provide training to investigators,
   monitoring of various media for            maintained, stored, and disposed of                                                         and approaches to aid in the              programs being delivered. We also         who consistently give very positive
   potential environmental impacts.           lawfully.                                                                                   establishment of a well-trained and       noted the gaps between the FLETA          feedback, despite the lack of resources
                                                                                                                                          highly skilled workforce in the offices   (Federal Law Enforcement Training         identified in the report. Our review
 •	 A more detailed understanding of          The objectives of our review were                                                           of Inspectors General.                    Accreditation) standards and the          revealed a small but dedicated staff
   groundwater flow and associated            to determine whether records were                                                                                                     current resources and programs at         achieving far more than the bare
   contaminant migration from the             being maintained in accordance with          boxes noted during                           The CIGIE has as one of its core            the CIGIE IG Academy if CIGIE             statistics suggest should be possible.
                                                                                           walkdowns of the
   Dredge Cell to adjacent surface            TVA policies and procedures and if           Chattanooga Office Complex                   missions to “maintain one or more           should seek accreditation. We             The director and staff are to be
   water would be required in order to        opportunities existed to improve records                                                  academies as the Council considers          concluded that the IG Academy must        congratulated for holding together a
   properly establish locations for long-     retention and disposal activities in light   •	 TVA’s current document                    desirable for the professional training     be provided with human capital and        program that enjoys the support of the
   term monitoring of wells.                  of office space consolidation initiatives.     management system hampers                  of auditors, investigators, inspectors,     infrastructure resources, including       majority of the IG community and
                                              Our review found TVA complied with             electronic record retention and            evaluators and other personnel of the       instructional, information technology,    continues to provide a valuable service.
 TVA management agreed with our               TVA records management policies,               disposal due to its limited capabilities   various offices of Inspector General.”      curriculum, and
 findings and recommendations and has         practices, and procedures. We also             and the information technology             While CIGIE is in the process of now        administrative
 taken or plans to take corrective actions.   found through sample testing that              structure.                                 establishing academies for audit and        support to
                                              records were maintained in accordance                                                     mission support since being given           sustain a quality
                                              with the National Archives and Records       •	 Organizations were sometimes              the statutory authority to do so, the       program. We
                                              Administration approved record                 unaware of the content of files and        IG community has had a criminal             recommended
                                              schedules. However, we noted some              boxes. Many work areas in the COC          investigator academy serving the needs
                                              areas where compliance could be                were cluttered and disorganized            of its special agents since 1994.
                                              strengthened.                                  and contained unauthorized items.


TVA 30       OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                       SEMIANNUAL REPOR T | April 1 – September 30, 2010        TVA       31       OIG
                        Summary of Representative Audits
                        During this reporting period, the OIG completed 41 audits which identified more than $16 million
                        in questioned costs and funds which could be put to better use. The OIG also identified numerous
                        opportunities for TVA to improve program operations. Audits completed this period included:
                        (1) financial and operational; (2) contract preaward and compliance; (3) distributors of TVA power;
                        and (4) information technology.


                        Financial and                                  any person or persons, for
                                                                       the purpose of recreation or
                        Operational                                    use as a summer residence,
                        Audits                                         or for the operation on such
                                                                       premises of pleasure resorts
                        RECREATIONAL LAND                              for boating, fishing, bathing,
                        TRANSACTIONS                                   or any similar purpose.”
                        ————————————————
                        Since 1933, the TVA dam and reservoir          According to TVA’s Land
                        construction program has acquired              Policy, as approved in
                        approximately 1.3 million acres of land        November 2006, TVA
                        for the creation of 34 reservoirs in five of   may consider leasing or

Representative Audits   the seven states in the Tennessee Valley.
                        Approximately 470,000 of these acres
                                                                       granting limited easements
                                                                       for commercial or public recreation
                                                                                                                   Holston Lake

                                                                                                                   part of a state park system that allows
                        were flooded as part of the construction       purposes. Commercial recreation is
                        and operation of the reservoir system,         defined as “recreation with facilities      overnight accommodations.
                        some 508,000 acres were transferred or         that are provided for a fee to the public
                        sold primarily to other federal and state      intending to produce a profit for the       TVA’s Environment and Technology
                        agencies for public use, and 293,000           owner/operator”; whereas public             (E&T), Land and Shoreline
                        acres are currently owned by TVA and           recreation is defined as “recreation        Management (L&SM), is responsible
                        managed to meet development needs as           on publicly owned land with facilities      for management of reservoir lands.
                        well as improve the quality of life in the     developed by a public agency (or its        Within L&SM, seven watershed teams
                        Tennessee Valley.                              concessionaire) and provides amenities      are located throughout the TVA region
                                                                       open to the general public.”                to perform stewardship functions and
                        These reservoir properties, together with                                                  serve as the primary customer interface.
                        adjoining private lands, have been used for    The Land Policy limits commercial           Watershed teams are responsible
                        public parks, industrial development,          recreational property usage to water-       for providing the general public
                        commercial recreation, residential             based recreation while retaining            information and support in the areas of
                        development, and a variety of other uses       restrictions against residential use        land use, water quality improvement,
                        associated with local communities and          as well as prohibiting long-term            permitting for construction activities,
                        government. Section 4(k)(a) of the TVA         accommodations or individually              recreation, and natural resource
                        Act gives TVA the power “to convey             owned units. The Land Policy                management and protection.
                        by deed, lease, or otherwise, any real         also contains restrictions against
                        property in the possession of or under         residential use, cabins, or other           In February 2010, the Senior
                        the control of the Corporation to              overnight accommodations (except            Vice President of Environment
                                                                       campgrounds), unless the property is        and Technology approved the




                                                                                   SEMIANNUAL REPOR T | April 1 – September 30, 2010        TVA 33           OIG
 Commercial Recreation Management               marina ownership, which could affect                                                 “TVA Corporate Credit Policy,”               •	 Due to a lack of documentation, we        goals, and strategic plan objectives. As
 Guidelines, based on a consultant’s            fees charged.                                                                        effective August 13, 2010, and it has          were unable to assess the adequacy         defined by TVA’s Project Justification
 recommendations. These guidelines                                                                                                   been approved by the CEO, six                  of the credit analysis process and         Process, the process consists of
 address agreement terms, rental fees,        •	 Reevaluations of annual fees had not                                                of his direct reports, and the                 determine if the results of the analysis   identifying project initiatives,
 renewals, administrative costs, and            been consistently performed.                                                         Chief Risk Officer.                            were communicated to the BU. We            coordinating and completing project
 documentation requirements by the                                                                                                                                                  also noted insufficient documentation      reviews, receiving funding, approving
 commercial operator. They also provide       •	 Reviews of monthly invoicing for                                                    In a recent Enterprise Risk                    was available to demonstrate               projects, and executing projects
 for centralized administration and             campground and marina operators                                                      Management update presentation to              monitoring.                                which include project postponement,
 management of commercial recreation            could be inadequate.                                                                 the ERC, TVA defines counterparty                                                         cancellation, and closure. Projects
 agreements to focus solely on public                                                                                                credit and performance risk as “the          •	 CC relies heavily on commercial           are initiated, owned, managed, and
 and commercial recreation agreements         •	 TVA did not have an accurate listing                                                exposure to economic loss that would           credit ratings in both initially           executed by the respective Strategic
 and permits.                                   of recreational properties which                                                     occur as a result of a counterparty’s          determining and monitoring                 Business Unit (SBU).
                                                could hinder adequate monitoring.                                                    nonperformance of its contractual              counterparty’s creditworthiness.
                                                                                                                                     obligations to TVA.” Because the risk                                                     As part of our annual audit plan, we
                                              •	 No process was in place for                                                         rating for counterparty credit risk was      •	 The credit analysis, performance          reviewed the process for postponing
                                                identifying data errors or                Pickwick Lake                              classified as “high,” we reviewed the          assurance, and monitoring processes        and cancelling capital projects. Our
                                                noncompliance issues related to                                                      process for assessing counterparty             were not always performed timely.          review specifically focused on the
                                                agreement terms other than “visual”       to transmission service contracts, but     credit risk as part of our annual audit        Specifically, we identified: BU            processes for the Nuclear Power Group,
                                                violations on the properties.             the following year, its responsibility     plan. Our objective was to evaluate the        requests for credit analysis made          Power System Operations, Fossil Power
                                                                                          increased to reviewing creditworthiness    process for ensuring that counterparty         less than one week prior to or             Group, and River Operations. Our
                                              •	 TVA did not exercise its right of        of procurement contract counterparties.    credit analysis was performed and              after the contract start date, credit      audit objectives were to determine
                                                reentry for properties sold under         However, it was not until 2001 that        monitored. We reviewed counterparty            memos dated after the contract             whether fiscal years (FYs) 2007 and
                                                Section 4(k)(a) when the properties       TVA adopted a formal credit policy         credit analysis as well as monitoring          date, financial analyses conducted         2008 project postponements and
                                                were used in violation of the deed.       after incurring a $3.7 million loss as a   activities from October 1, 2008,               with outdated financial statements,        cancellations were properly approved,
 Boating on Fort Loudoun Lake                                                             result of a counterparty bankruptcy. The   through March 31, 2010, in addition to         contracts executed with outdated           effectively communicated, and
                                              •	 Structures had been built on TVA         policy charged the credit department       reviewing the draft policy at the request      credit memos, and contract-required        monitored to prevent inappropriate
 As part of our annual audit plan, we           properties without TVA approval.          with managing credit exposure and          of TVA Treasury.                               performance assurance not obtained         charges. We determined there were a
 assessed the process for entering into                                                   monitoring creditworthiness of all TVA                                                    in a timely manner.                        total of 589 postponed capital projects
 recreational land transactions and           •	 Sporadic usage of “approvable            customers, suppliers, and vendors as       In summary, we found:                                                                     and 87 cancelled capital projects in FYs
 monitoring and enforcement of these            actions” (i.e., permits were issued       well as outlined the types of business                                                  •	 Active counterparties are not being       2007 and 2008.
 transactions as of August 26, 2009.            after construction or changes had         activities and level of credit support     •	 CC has historically lacked authority        consistently monitored for continuous
 In addition, our review included               been made to the property without         provided. According to TVA Treasury’s        to determine which counterparties            creditworthiness.                          While all sampled capital projects
 information related to the valuation of        TVA approval).                            Corporate Credit (CC) personnel, TVA         require a credit analysis and when                                                      reviewed were approved by the
 campgrounds and marinas. As a result                                                     has averted a total of $75 million in        performance assurance is required.         TVA management agreed with our               appropriate levels of authority and
 of our review, we identified several areas   TVA management agreed with our              losses since 2001.                                                                      findings and recommendations and is          contained a capital classification
 needing improvement. Specifically, we        findings and recommendations and is                                                    •	 Because of the lack of a central,         taking corrective action.                    designated by Fixed Asset Accounting
 determined:                                  taking corrective action.                   Subsequent to approval of the Policy,        governing body, the process has                                                         (FAA), we found:
                                                                                          CC began conducting creditworthiness         become siloed, with business               POSTPONED/CANCELLED
 •	 TVA’s Stewardship Guidelines did          COUNTERPARTY CREDIT RISK                    reviews (also known as credit analyses)      units (BUs) establishing their own         CAPITAL PROJECTS                             •	 Not all project documentation was
   not include adequate criteria to           ————————————————                            of industrial and direct-served power,       criteria for requiring a credit analysis   PROCESS                                        updated with changes in project
   provide for consistency in awarding        In 1997, TVA created a credit               gas, fossil, and International Swap          and deciding to implement CC’s             ————————————————                               status as required.
   recreational land agreements.              department in response to a Federal         Dealers Association counterparties.          recommendations. As a result, we           Each year, TVA initiates a wide
                                              Energy Regulatory Commission order                                                       identified counterparties that met the     variety of capital and operations and        •	 Some cancelled projects contained a
 •	 Licenses had been used for long-term      which promoted wholesale competition        The Enterprise Risk Council (ERC)            BU guidelines or CC expectations of        maintenance (O&M) projects. In that            cancellation date occurring prior to
   encumbrances of recreational lands.        within the public utility industry.         approved a revised credit policy on          requiring a credit review, but the BU      regard, TVA’s project justification            the SBU’s approval for cancellation
                                              Initially, the department was responsible   June 22, 2010. The policy was                did not request a credit analysis.         process is designed to ensure that such        which may have been due to timing
 •	 No formal process was in place to         for reviewing counterparties                transitioned to a TVA Standard                                                          projects are aligned with TVA’s vision,        issues.
   track changes in campground or                                                         Programs and Processes (SPP) entitled



TVA 34       OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                      SEMIANNUAL REPOR T | April 1 – September 30, 2010         TVA 35            OIG
•	 Cancellation of projects was not
  always communicated to FAA as
                                            IT Audits                                      provisions of the Consolidated
                                                                                           Appropriations Act of 2005. In
                                                                                                                                       CONTRACT COMPLIANCE
                                                                                                                                       REVIEWS
  required.                                 During this semiannual period,                 2007, the OIG completed the first           ————————————————
                                            we completed three audits in                   independent review of TVA’s Privacy         During this semiannual period, we
•	 Some projects contained travel costs     the IT environment on the final                Program and privacy protection              completed seven compliance audits
  which were split among projects.          implementation phases of TVA’s new             practices. While TVA had generally          of contracts with expenditures totaling
                                            asset management system; the OIG’s             improved its privacy program since          $193 million and identified potential
•	 One business unit lacked criteria        biennial assessment of TVA’s controls to       our review two years ago, we found          overbillings of $2.6 million. Highlights
  related to (1) allocating capital and     protect PII; and a survey of controls over     several program and compliance              of our completed compliance audits
  O&M costs to a project, (2) allocating    TVA PII held by private third parties.         controls (including controls over           follow.
  costs among projects, and                                                                PII data held by third parties) that
	 (3) borrowing funds from other            •	 Pre-implementation audits are               needed to be strengthened to reduce         •	 We audited $4.27 million of costs
  projects.                                   performed to evaluate and test the           potential PII compromise.                     that a contractor billed to TVA for
                                              proposed control environment in                                                            providing preemptive full structural
•	 Project documentation was not              new systems. During this reporting         We also issued a summary report on              weld overlays on Sequoyah Nuclear
  retained in accordance with retention       period, the OIG completed the              TVA’s backup and recovery processes,            Plant Units 1 and 2. We found the
  guidelines.                                 pre-implementation audit for the           the details of which we reported in             contractor had billed TVA $320,700
                                              new asset management system.               the previous semiannual report, and             in unsupported and ineligible costs,
•	 Control weaknesses existed that could      The results of our review for the          completed 14 audits in support of               including $271,200 of unsupported
  allow business units to manipulate          first phase were reported in the           TVA’s FY 2010 efforts to comply with            delay costs and $49,500 of ineligible
  project costs in order to meet budget       previous semiannual. For the final         the Sarbanes-Oxley Act of 2002. TVA             billings for the cleaning and
  goals. Specifically, communication          phases of implementation, we               management agreed with our findings             handling of equipment that was
  and monitoring controls were not            found implementation plans and             and is taking corrective action to              contaminated before it was shipped
  adequately designed to mitigate the         processes were generally adequate          implement the recommendations.                  to TVA. We recommended TVA
  risk that project costs were                regarding application access controls,                                                     management recover the $320,700
	 (1) accurately and timely                   system security, system testing, data                                                      in unsupported and ineligible costs.
  communicated for recording on the           verification, and general controls                                                         TVA management plans to require
  financial statements,                       included in our audit scope; however,      Contract Audits                                 the contractor to refund $271,200,
	 (2) appropriately classified as capital     we noted two areas of concern related      PREAWARD CONTRACT                               unless it can provide supporting
  costs rather than O&M costs, and            to (1) inadequate system testing           REVIEWS                                         documentation for the delay charges,
	 (3) appropriately and accurately            documentation and (2) outdated             ————————————————                                and recover the $49,500 of ineligible
  charged to the projects.                    system authorization documentation.        To support TVA management in                    billings.
                                                                                         negotiating procurement actions, we
•	 Projects were cancelled due to a         •	 PII is defined by the Office of           completed three preaward audits of            •	 We audited $61.92 million in costs
  duplicate scope within another              Management and Budget in                   cost proposals submitted by companies           that a contractor billed to TVA for
  project.                                    Memorandum 07-16 and refers to             proposing to provide (1) engineering            performing engineering services
                                              information which can be used alone        and maintenance services for TVA’s              from October 2004 to December
TVA management agreed with our                to distinguish or trace an individual’s    nuclear operations and (2) dredging             2008, and we found TVA had been
findings and recommendations and is           identity, such as their name, Social       services. Our audits identified                 overbilled $683,122 as follows:
taking corrective action.                     Security number, biometric records,        $13.7 million resulting from inflated
                                              or when combined with other                proposed costs due to overstated              	 —	$70,838 because labor costs were 	
                                              personal/identifying information           (1) labor costs, (2) indirect cost recovery   		 billed using hourly rates instead of
                                              which is linked or linkable to a           rates, (3) equipment billing rates, and       		 the cost reimbursable terms
                                              specific individual, such as date and      (4) fees. TVA management uses the             		 required by the contracts;
                                              place of birth or mother’s maiden          findings from our preaward audits
                                              name. The OIG conducted this audit         to negotiate better cost provisions in        	 —	$558,463 in ineligible and
                                              as an independent review of TVA’s          awarded contracts.                            		 excessive temporary living costs
                                              use of PII in accordance with privacy                                                    		 because short-term daily travel
                                                                                                                                       		 rates were paid to employees


                                                                                                     SEMIANNUAL REPOR T | April 1 – September 30, 2010         TVA 37          OIG
 		 instead of (lower) long-term              personnel at a fossil plant processed     billing rates in its contract had been    	 —$66,071 in estimated travel          	 The contractor agreed it should          Distributor
 		 temporary living allowances, and
 		 unauthorized local mileage
                                              payments for ammonia before
                                              the ammonia had been received.
                                                                                        competitively bid, TVA and the
                                                                                        contractor subsequently agreed to a
                                                                                                                                  		 costs, because the contractor did
                                                                                                                                  		 not bill actual expenses as
                                                                                                                                                                            reimburse TVA at least $173,162 for
                                                                                                                                                                            certain overbillings but requested
                                                                                                                                                                                                                     Audits
 		 costs were paid to personnel              Additionally, the quantities of           $100,000 settlement to resolve the        		 required by the contract;              TVA take into consideration certain
                                                                                                                                                                                                                     TVA has 155 distributors—
 		 receiving temporary living                ammonia billed to TVA at this             issues identified by the audit.                                                     extenuating circumstances in
                                                                                                                                                                                                                     municipalities and cooperatives—that
 		 allowances:                               fossil plant were not independently                                                 	 —$55,524 in estimated drilling,         determining the total reimbursement
                                                                                                                                                                                                                     resell TVA power to consumers across
                                              verified.                               •	 We audited $9.5 million of costs          		 sampling, and equipment costs,        amount. TVA management agreed
                                                                                                                                                                                                                     the Tennessee Valley and power sales
 	 —	An estimated $40,034 in travel                                                     that a contractor billed to TVA for       		 due to incorrect billing rates and     with our findings and plans to recover
                                                                                                                                                                                                                     to these distributors comprise about
 		 costs due to overstated mileage         	 TVA management subsequently               providing assistance in implementing       		 unsupported costs;                    the overbilled costs.
                                                                                                                                                                                                                     84 percent of TVA’s operating revenue.
 		 reimbursement rates, meal costs           recovered the $188,231 and revised        a power system optimization project.
                                                                                                                                                                                                                     The Distributor Audits group evaluates
 		 for unidentified personnel,               its receiving procedures as well          We found the contractor overbilled
                                                                                                                                                                                                                     these distributors to assess compliance
 		 unallowable rental car expenses,          as provided training to the site          TVA $234,406, including $227,763
                                                                                                                                                                                                                     with key power contract provisions,
 		 and daily travel costs in excess of       personnel on material payment             in overstated subcontractor costs and
                                                                                                                                                                                                                     including: accurate reporting of electric
 		 daily limits; and                         processes. Management also                $6,643 in unsupported subcontractor
                                                                                                                                                                                                                     sales by customer class to facilitate
                                              determined the ammonia prices paid        costs. The contractor acknowledged it
                                                                                                                                                                                                                     proper revenue recognition and billing
 	 —	$13,787 because an ineligible            prior to 2006 had been negotiated in      had not billed in accordance with the
                                                                                                                                                                                                                     by TVA; nondiscrimination in providing
 		 markup was added to certain               a competitive model among multiple        contract provisions for subcontractors
                                                                                                                                                                                                                     power to members of the same rate
 		 subcontractor costs, and an               suppliers on a monthly basis.             but stated the rates it had billed were
                                                                                                                                                                                                                     class; and use of power revenues. In
 		 incorrect billing rate for other                                                    the same as those being charged
                                                                                                                                                                                                                     addition, Distributor Audits also makes
 		 direct costs was used.                  •	 We audited $19.1 million in costs        to TVA by a previous supplier
                                                                                                                                                                                                                     recommendations to TVA management
                                              that a contractor billed to TVA for       or were reasonable because the
                                                                                                                                                                                                                     to help improve their oversight role of
 	 The contractor generally disagreed         performing diving services between        subcontractor employees were acting
                                                                                                                                                                                                                     the distributors.
 	 with most of the audit findings            November 2003 and September               as employees of the contractor. TVA
   and stated its billings to TVA were        2009. We determined TVA had paid          management agreed with our findings
                                                                                                                                                                                                                     During this semiannual period,
   correct, fair, reasonable, and in          $643,700 in inflated labor costs as       and plans to recover the overbilled
                                                                                                                                                                                                                     the OIG completed four reviews of
   accordance with the plain language         described below:                          costs.
                                                                                                                                                                                                                     distributors including one distributor
   of the contracts it had with TVA.
                                                                                                                                                                                                                     that TVA had granted retail rate setting
   However, since the contractor did        	 —	The contractor misrepresented its     •	 We audited $3.3 million in payments                                                                                         authority in 2004. The following
   not provide additional evidence or       		 actual costs when it provided            TVA made to a contractor for
                                                                                                                                                                                                                     describes the issues noted in one or
   documentation to support its claims,     		 breakouts of its proposed billing        geotechnical services between
                                                                                                                                                                                                                     more of the four completed distributor
   we recommended TVA management            		 rates for divers and diver tenders       January 2003 and July 15, 2009. We
                                                                                                                                                                                                                     reviews.
   take action to recover the overbilled    		 prior to the contract award. We          determined the contractor overbilled
   and excessive costs.                     		 estimated TVA had paid $623,000          TVA $395,479 as follows:                  	 —$51,224 in vehicle charges, 		       •	 We audited $35.07 million that a
                                                                                                                                                                                                                     CLASSIFICATION AND
                                            		 in inflated labor costs since the                                                  		 because the contractor billed          contractor billed to TVA for providing
                                                                                                                                                                                                                     METERING
 •	 We audited $59.5 million that a         		 inception of the contract because      	 —$216,865 in labor costs,                 		 both daily rates and mileage           quality control inspections and
                                                                                                                                                                                                                     ————————————————
   contractor billed to TVA for supplying   		 the billing rates were not             		 including $110,016, due to the 	         		 rates for certain vehicles and         nondestructive examinations under
                                                                                                                                                                                                                     We noted instances where: customers
   ammonia and urea for TVA’s               		 supported by the contractor’s          		 use of hourly billing rates instead 	    		 could not document the 		              two contracts. We found TVA was
                                                                                                                                                                                                                     were not classified properly; similar
   Selective Catalytic Reduction systems    		 actual costs.                          		 of actual wages and markup as            		 accuracy of the billing rates it       overbilled $159,662 under one of
                                                                                                                                                                                                                     customers were not classified the
   from April 1, 2004, through June 19,                                               		 specified in the contract                		 used for mileage; and                  the contracts, including $136,030 in
                                                                                                                                                                                                                     same; customers were not metered
   2009. We found: TVA overpaid the         	 —	TVA was billed $20,700 in inflated    		 compensation section; 	                                                            overstated payroll taxes, insurance,
                                                                                                                                                                                                                     for demand; demand meters did not
   contractor $188,231 due to invoice       		 labor costs because the contractor     		 $98,681 for overtime costs               	 —$5,795 in subcontractor costs, 	       and related performance fees,
                                                                                                                                                                                                                     measure a component of demand
   payment errors and the contractor’s      		 could not support the higher           		 the company did not incur;               		because the contractor billed more      $18,228 in ineligible labor costs, as
                                                                                                                                                                                                                     (kVa); and multiple zero usage readings
   use of incorrect unit prices, TVA paid   		 billing rates that were used for       		 and $8,168 for miscellaneous              		 than its actual costs for the         well as $5,404 in duplicate fees. The
                                                                                                                                                                                                                     occurred during the audit period. The
   $12.4 million for certain charges that   		 diver coating applicators.             		 duplicate and unsupported                		subcontracts.                           contractor agreed with our findings
                                                                                                                                                                                                                     impact of these issues, where we had
   could not be validated because of                                                  		charges;                                                                            and plans to reimburse TVA for the
                                                                                                                                                                                                                     adequate information to estimate, was
   inadequate or missing compensation         Although the contractor disagreed                                                                                             overbilled costs.
                                                                                                                                                                                                                     not significant; however, there were
   provisions in the contract, and site       with the audit findings, stating the



TVA 38       OIG      SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                              SEMIANNUAL REPOR T | April 1 – September 30, 2010       TVA 39             OIG
 some instances where we did not have        exceeding the minimum guidelines of          DISTRIBUTOR INTERNAL                        service area and not the SIC code of            issue separately after additional reviews    nondiscrimination in providing power to
 enough information to estimate the          5 to 8 percent, and one distributor used     CONTROL ISSUES                              the headquarters or facility in another         are undertaken.                              customers. The distributor agreed and
 impact. Generally, the distributors         electric department funds for non-           ————————————————                            location; and require eligibility                                                            is taking action to correct some of these
 agreed with our findings and have           electric businesses without obtaining        At each of the distributors audited, we     verification for customers receiving            In this semiannual period, we reviewed       issues, but either disagreed or did not
 already corrected or are taking action to   appropriate written agreements.              identified areas where internal controls    certain credits. Generally, TVA agreed          one of the four distributors with            address other issues in their response. In
 correct these issues. We also noted one                                                  could be strengthened to improve            to take action on these issues.                 authority to set its own retail rates        addition, we recommended TVA
 of the billing agencies used by a large     Cash Reserves— While TVA has                 completeness, accuracy and validity                                                         and noted, among other things, the           develop and provide guidance on
 group of TVA distributors corrected         established guidelines to determine if       of the billing data. The following          ONE OF FOUR DISTRIBUTORS                        following issues: (1) a specialized          controls over designing, approving,
 their programming logic to more             a distributor has adequate cash reserves     issues were noted at one or more of         GRANTED AUTHORITY TO SET                        industrial rate was provided to only one     and implementing retail rates for
 accurately comply with                      (a cash ratio of 5 to 8 percent), TVA has    the distributors reviewed: (1) lack of      OWN RETAIL RATES                                customer, and the rate was not publicly      distributors with authority to set
 the power contract.                         not established guidelines to determine      agreement between contract demand           ————————————————                                listed on the distributor’s Web site;        its own retail rates. TVA indicated
                                             if a distributor’s cash reserves are         per the contract and contract demand        In 2002, TVA’s Board of Directors               (2) wholesale fuel cost adjustments and      it could not implement these
 OTHER CONTRACT                              excessive. Two of the four distributors      in the billing system; (2) lack of formal   approved six wholesale power contract           wholesale rate increases and decreases
                                                                                                                                                                                                                                   recommendations because TVA no
 REQUIREMENTS                                reviewed had cash ratios exceeding the       policies for charitable contributions;      flexibility options for distributors,           were not passed on to all customers;
                                                                                                                                                                                                                                   longer regulates the distributor’s resale
 ————————————————                            minimum guidelines of 5 to 8 percent,        (3) incorrect calculations for demand       including terminating TVA’s contract            (3) certain retail rate increases were
                                                                                                                                                                                                                                   rates. TVA also indicated that at TVA’s
 We found distributors were not              and one distributor had a cash ratio of      and reactive power billed to customers;     authority and obligations regarding the         implemented without distributor board
 complying with certain other contract       2 percent, which is below the 5 to 8                                                     distributor’s retail rates. Four distributors   approval; and (4) the distributor’s board    request, the distributor had agreed to
                                                                                          (4) lack of logging of manual changes
 requirements. Specifically, we noted:       percent minimum guidelines. TVA has          to key fields in the billing system and     were granted this authority and can             did not formally document and approve        evaluate reinstatement of the retail
 (1) contracts were not in place for all     agreed to define criteria for determining    review by management; (5) lack of           determine the retail rates charged to           rate schedules for retail customer           rate regulation provisions in the power
 customers whose demand exceeded             when a distributor’s cash reserves are       documentation certifying a customer         customers with no or limited oversight          classifications. These issues could          contract.
 1 megawatt; and (2) cost allocation         excessive.                                   met the manufacturing service               by TVA.                                         impact the distributor’s ability to ensure
 for joint use of property and services                                                   schedules qualifications; (6) lack of
 agreed to with TVA were not being           Use of Funds for Non-Electric                identity of customer account or location    The TVA Board, however, did not
 applied; instead, other allocation          Purposes— One of the four distributors       in the customer’s contract; (7) lack of     relinquish the responsibility to ensure
 methods not approved by TVA were            reviewed used electric department            clear identity of the applicable retail     power purchased is sold and distributed
 used, and/or allocations were applied       funds for non-electric businesses            rate classification in the customer’s       to the ultimate consumer without
 improperly; (3) accounts were not           without obtaining appropriate                contract; and (8) manual calculation of     discrimination among consumers of
 classified in accordance with Federal       written agreements with TVA. The             the customer’s bill outside the billing     the same class; and no discriminatory
 Energy Regulatory Commission                distributor obtained TVA approval            system. Generally, the distributors         rate, rebate, or other special concession
 requirements; and (4) co-mingling of        to use electric funds to finance the         agreed and have already corrected or are    can be made or given to any consumer.
 electric department funds with those        telecommunications department for            taking action to correct these issues.      According to agreements with three of
 of other city departments. Generally,       expenses exceeding the bond funds                                                        the four distributors, the options were
 the distributors agreed and have already    that were obtained; however, after the       OPPORTUNITIES FOR TVA                       provided because the electric utility
 corrected or are taking action to correct   first three years, any electric funds used   OVERSIGHT IMPROVEMENTS                      industry was undergoing changes and
 these issues.                               to finance the telecommunications            ————————————————                            restructuring and to prepare for the
                                             department were to be repaid with            We found new opportunities for              prospect of legislation further altering
 USE OF ELECTRIC REVENUES                    interest accrued at the same rate as the     TVA to enhance oversight of the             the industry as well as the relationship
 ————————————————                            telecommunication bonds. TVA and             distributors. Specifically, we found        between TVA and its distributors.
 We found two distributors reviewed          the distributor agreed to take corrective    TVA should: clarify that the Standard       The decision previously made by the
 had more than enough cash on                action.                                      Industrial Classification (SIC) code        TVA Board to allow the four distributors
 hand to fund planned/actual capital                                                      used to determine eligibility for the       to regulate their own retail rates
 expenditures and provide a cash reserve                                                  manufacturing schedules should              significantly increases the reputational
                                                                                          be the SIC code of the customer’s           risk to TVA surrounding their role as
                                                                                          facility located in the distributor’s       a regulator. The OIG will address this




TVA 40       OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                          SEMIANNUAL REPOR T | April 1 – September 30, 2010        TVA 41          OIG
                                Summary of Representative Investigations
                                During this reporting period, Investigations collaborated significantly
                                with Audits on contract-related issues. In this reporting period, we
                                obtained two guilty pleas in a fraud case with overlapping issues of
                                interest in a parallel audit. Investigations continued to focus on major
                                fraud cases and continued working in partnership with various task forces.

                                We opened 199 cases and closed               vendor was a straw company utilized        submitted by contractors who performed
                                221 cases during this period. We             by the former manager’s accomplice.        work on the TVA project he supervised.
                                helped TVA to save or recover more           The manager’s co-conspirator was           The former manager admitted that
                                than $4 million, and our cases resulted      also indicted on May 26, 2010, on five     in the course of performing official
                                in seven indictments, eight convictions,     counts of mail fraud (18 U.S. Code,        duties, he personally approved two
                                and a pretrial diversion.                    Sec. 1341 and 1342) based on his           invoices to TVA from the Center for
                                                                             involvement in the scheme, and             Economic Development and Resource
                                Criminal Cases                               pled guilty to one of those counts on      Stewardship (CEDARS). Prior to the

                                with Judicial                                August 25, 2010. Both individuals
                                                                             are awaiting sentencing. Based on
                                                                                                                        approval of these invoices, he personally
                                                                                                                        loaned $2,500 to CEDARS as “start
                                Action                                       the results of this investigation, TVA’s   up” money and loaned the organization
                                                                             Supply Chain Vice President sent a         $5,000 on behalf of Enginuity
                                FORMER TVA SUBCONTRACT
Representative Investigations
                                                                             fleet-wide directive along with a press    Development Group, LLC, of which he
                                MANAGER AND ACCOMPLICE
                                                                             release issued by the United States        was a managing member. The former
                                PLEAD GUILTY TO FRAUD
                                                                             Attorney’s Office for the Northern         project manager admitted knowledge
                                ————————————————
                                                                             District of Alabama to ensure indicia of   of a financial interest in CEDARS and
                                A former manager of Shaw Field
                                                                             such conduct are immediately reported      violated the federal conflict of interest
                                Services, then a wholly owned and
                                                                             to the OIG.                                statute by approving the invoices. After
                                operated subsidiary of Shaw Group,
                                                                                                                        the TVA OIG issued a management
                                Inc., and later Analytic Stress Relieving,
                                                                             FORMER TVA ECONOMIC                        alert, the former project manager
                                pled guilty in federal court to a charge
                                                                             DEVELOPMENT PROJECT                        resigned from TVA in April 2008 and
                                of wire fraud (18 U.S. Code, Sec. 1341)
                                                                             MANAGER SENTENCED                          was sentenced on July 23, 2010, to one
                                along with a related forfeiture count.
                                                                             ————————————————                           year probation.
                                Shaw Field Services and Analytic
                                                                             As reported in our last semiannual
                                Stress Relieving provided heat stress
                                                                             report, a former TVA Economic              OPERATOR OF CHELATION
                                work related to welding at a number
                                                                             Development project manager pled           CENTER IN NASHVILLE
                                of TVA facilities. The guilty plea was
                                                                             guilty in January 2010 to two counts of    INDICTED
                                in connection with a scheme in which
                                                                             violating a federal criminal conflict of   ————————————————
                                fraudulent purchase requests and
                                                                             interest statute (18 U.S. Code, Section    The operator of Advanced Wellness
                                invoices were produced and provided to
                                                                             208(a). While working for TVA as a         Systems, a chelation center in
                                the parent companies, which passed the
                                                                             technical services project manager, the    Nashville, Tennessee, that provided
                                related costs on to TVA.
                                                                             former Economic Development project        services to TVA-insured individuals,
                                                                             manager’s duties included overseeing       was indicted in June 2010 in Tennessee
                                The fraudulent documentation showed
                                                                             environmentally-friendly development       State court for charges of insurance
                                purchases of insulating materials by
                                                                             projects and approving invoices            fraud. Advanced Wellness was
                                a third party vendor, when in fact the




                                                                                         SEMIANNUAL REPOR T | April 1 – September 30, 2010      TVA     43      OIG
 performing chelation treatments, a          daughter was collecting and cashing his     Other                                       EMPLOYEE MISCONDUCT                         CONTRACTOR RECEIVING                       additional employees were counseled
 process where metals are flushed from
 the blood, at clinics located near TVA
                                             compensation benefits checks while he
                                             was incarcerated on an unrelated felony
                                                                                         Investigations                              ISSUES
                                                                                                                                     ————————————————
                                                                                                                                                                                 PREFERENTIAL TREATMENT
                                                                                                                                                                                 ————————————————
                                                                                                                                                                                                                            concerning taking gifts from the
                                                                                                                                                                                                                            contractors.
 facilities and in union halls.  Advanced    charge, which is a violation of OWCP        DATA MINING PROJECT                         TVA OIG investigated a number               We received a complaint through our
 Wellness allegedly billed for chemicals     regulations. The charged individual         LEADS TO LONG-TERM                          of employee misconduct matters,             Empowerline alleging that a TVA            FISH KILL AT OCOEE CAUSED
 that were not being provided to the         pled guilty in June 2010 to one count of    SAVINGS FOR TVA                             including unethical practices               manager at Marshall Combustion             BY TVA RELEASE OF WATER
 patients and provided unnecessary           theft of property during this semiannual    ————————————————                            related to procurement, falsifying          Turbine (CT) Plant, had an                 ————————————————
 treatments.                                 period and was sentenced to five years      The OIG initiated an investigation          TVA records, abuse of position,             inappropriate relationship with a TVA      The OIG conducted an investigation
                                             probation as well as required to pay        as a result of a data mining project        misuse of government vehicles and           contractor. The manager was allegedly      of a significant fish kill on the Ocoee
 FORMER TVA EMPLOYEE                         restitution of $7,994. As a result of the   that identified OWCP recipients             computers, and nepotism.  Actions           giving the contractor preferential         River, thought to be caused by
 PLEADS GUILTY TO FRAUD                      conviction, the former employee was         who received benefits while earning         by TVA management based on OIG’s            treatment by awarding contracts based      sediment washed downstream when
 ————————————————                            removed from the OWCP, resulting in         an income in excess of 25 percent of        investigations and recommendations          on a personal relationship with the        TVA released water from Ocoee Dam
 As reported in our last semiannual          future savings to TVA of $411,108.          the compensation benefits. A former         included policy revisions and personnel     owner of the company. In addition, it      No.3. Reportedly, TDEC told TVA
 report and in connection with a                                                         employee, who was vocationally              actions, including dismissal from TVA       was alleged that the manager allowed
 worker’s compensation claim, a former       FORMER TVA EMPLOYEE                         rehabilitated, was earning wages greater    employment.                                 the contractor to use TVA equipment
 Widows Creek Fossil plant employee          PLEADS GUILTY TO THEFT                                                                                                              for personal business. Our investigation     Ocoee No. 3
                                                                                         than the current pay for the job the                                                                                                 Facts and Figures
 was indicted in February 2010 on two        ————————————————                            individual had at TVA when injured.         INAPPROPRIATE MATERIAL                      substantiated these allegations and
 counts of making false statements in        As previously reported, on May 8, 2007,     Therefore, the individual was no longer     PLACED ON TVA COMPUTER                      revealed that the contractor received a
                                                                                                                                                                                                                              Construction of Ocoee Dam No. 3 began
 violation of 18 U.S. Code, Section          a grand jury in Knoxville, Tennessee,       eligible to receive benefit payments, and   AT WATTS BAR                                majority of the outside contract work        in 1941 and was completed in 1942.
 1001. The former employee pled              indicted a former TVA Yard Equipment        as a result of the OIG’s investigation      ————————————————                            at the Marshall CT plant, totaling
 guilty in May 2010 in federal court in      Technician for theft in connection with                                                 The OIG received anonymous reports          more than $300,000 from April 2007           The dam is 110 feet high and stretches
                                                                                         was removed from the OWCP. This                                                                                                      612 feet across the Ocoee River.
 Birmingham, Alabama, to one count of        personal use of stolen TVA gasoline         will result in a long-term savings to TVA   indicating that inappropriate and crude     to September 2008. In addition, the
 18 U.S. Code Section 1920, knowingly        credit cards. The former employee pled      of more than $435,000. This case was        material, some of which resembled           owners of the contract company               Ocoee No. 3 provides 24 miles of
 and willfully making a false, fictitious,   guilty August 16, 2010, and is scheduled                                                extremist information, had been placed      also owned a used car business. We           shoreline and 360 acres of water surface.
                                                                                         not referred for prosecution because it
 and fraudulent statement in connection      for sentencing in October 2010. This        was not a criminal violation.  Income       in a Watts Bar Nuclear Plant employee’s     determined that on two occasions the         Water is diverted from generation and
 with application for compensation,          case was conducted jointly with the         was reported correctly by the former        shared network folder. We reviewed          TVA manager accepted the use of a            sluiced from the dam on selected days
 benefits, and payment. In September         TVA Police.                                                                             the material and referred the matter to     vehicle from the business at no charge,      to provide for whitewater recreation
                                                                                         employee on the forms submitted to                                                                                                   downstream of the dam and through
 2010, the former employee was                                                           OWCP.                                       the Federal Bureau of Investigation.        in violation of TVA’s Code of Conduct.       the 1996 Olympic whitewater course.
 sentenced to 18 months probation and                                                                                                After conducting a joint interview of the
 ordered to pay restitution. Previously,                                                                                             employee, it was determined that the        Our office issued a report to TVA            The hyrdoelectric power plant at
                                                                                                                                                                                                                              Ocoee Dam No. 3 consists of one
 the employee was terminated from                                                                                                    individual did not appear to have any       management who discussed the                 generating unit.
 TVA in August 2009 as a result of our                                                                                               connection to extremist activity. Given     applicable TVA policies and procedures
 investigation.                                                                                                                      the nature of some of the material, the     with the manager. Following this
                                                                                                                                     OIG issued a report to management           discussion, the manager resigned from
 FORMER TVA EMPLOYEE                                                                                                                 recommending that all information           TVA and an employment restriction flag     not to open the gates to release water
 AND OFFICE OF WORKERS’                                                                                                              resource practices be in accordance         was placed in the manager’s personnel      from the dam because of the sediment
 COMPENSATION PROGRAMS                                                                                                               with TVA policies. Based on the             security record to ensure the results      issues. TVA reportedly was also advised
 (OWCP) RECIPIENT PLEADS                                                                                                             recommendations, the employee was           of this investigation are taken into       of the chemical constituents that
 GUILTY TO THEFT                                                                                                                     coached on appropriate use of TVA           account should the individual seek TVA     were in the sediment upstream of the
 ————————————————                                                                                                                    computers.                                  reemployment. In addition, TVA placed      dam. Allegedly, TVA ignored TDEC,
 As reported in our last semiannual                                                                                                                                              the contractor on the Supply Chain         claiming they did not need a permit to
 report, a former TVA employee and                                                                                                                                               Clearance List and agreed to reinforce,    release water for routine maintenance.
 OWCP recipient was indicted in                                                                                                                                                  while training contract managers and       As a result, TDEC issued TVA a Notice
 February 2010 in Tennessee State                                                                                                                                                procurement agents, the importance of      of Violation. Our investigation did not
 court to theft of property after an                                                                                                                                             reporting any unusual or odd behavior      substantiate criminal negligence on the
 OIG investigation determined his                                                                                                                                                or gifts from the contractors. Two         part of any particular TVA employee

                                                                                          Watts Bar Nuclear Plant

TVA   44     OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                    SEMIANNUAL REPOR T | April 1 – September 30, 2010         TVA        45       OIG
                                                                                                                                                                              FOCUS ON COLLABORATION

 relating to the intentional release                                                                                                                                          Inspector General Moore has tasked TVA OIG groups with leveraging
 of anoxic sediment from the Ocoee                                                                                                                                            the broad knowledge base of our office components through proactive
 Dam No. 3 reservoir into the lower                                                                                                                                           collaborative efforts. “It’s critical that we know what we know, that
 Ocoee Dam No. 2 reservoir. However,                                                                                                                                          information gained in one area is not lost in another,” Inspector General
 incidents such as the sediment                                                                                                                                               Moore said. “The success of the office requires our employees to maintain
 release at Ocoee Dam No. 3 pose a                                                                                                                                            a broad perspective while executing their individual assignments.” This
 significant risk to TVA’s reputation                                                                                                                                         semiannual report reflects shared successes. For example, parallel efforts
 as an environmentally conscientious                                                                                                                                          by a special agent and an auditor led to federal felony convictions of two
 government entity. Our office                                                                                                                                                individuals in Alabama, and the recovery of more than $1 million identified
 issued a report to TVA management                                                                                                                                            by the audit. While the agent addressed six instances of fictitious invoice
 recommending they consider revising                                                                                                                                          submissions passed through to TVA, the auditor uncovered and followed up
 existing policies and procedures to       Browns ferry Nuclear Plant                                                                                                         on numerous duplicate and triplicate charges for labor and equipment as
 address water releases from the Ocoee                                                                                                                                        well as a number of other unsupported charges.
                                           Regulatory Commission (NRC)               contract with TVA. The contracts            We issued a report to management
 Dam No. 3 reservoir. TVA management
                                           inspection found two quality assurance    included a Competitive Index Rate           recommending that in all future              In another instance, a contract audit revealed charges to TVA on a fixed
 agreed with the OIG recommendations
                                           violations. In response to the NRC        (CIR) credit which gave the customer        applications of the CIR program, a           price basis rather than the contractual cost reimbursable basis. The matter
 and initiated “Best Management
                                           findings, BFN has contract employees      a more competitive rate as an incentive     procedure be put in place allowing           was referred to Investigations for review, and a parallel investigation was
 Practices for Drawdown Operations
                                           working, at great expense, around the     to remain within Murphy’s system. As        TVA Contract personnel or OGC to             initiated, which led to the conclusion that the contractor knowingly charged
 at Ocoee 3.” This plan addresses the
                                           clock to fix the problems. However,       approved by the TVA Board, the rate         review the distributor’s corresponding       TVA an errant rate resulting in overcharges of $2.2 million. The parallel
 recommendations in the OIG report, by
                                           had normal scheduling of corrective       used to calculate a CIR credit should be    retail contract with the end use             efforts led to the recovery of the full amount under the audit.
 spelling out the process for conducting
                                           action occurred these problems            adjusted when the competing system’s        customer to ensure there are no
 all future drawdowns at Ocoee Dam
                                           would have been corrected within          rates change. Terms of the Murphy           conflicts with the distributor’s             In a third example, an OIG Special Agent received an anonymous
 No. 3, including prescribed flow rates,
                                           the normal work hours and course of       retail contract included a fixed rate for   wholesale contract with TVA.                 complaint that a TVA technical contract manager (TCM), had received
 reservoir elevation, and notification
 requirements.                             business at the FPG. As a result of our   a five year period, but the wholesale                                                    funds from a contractor, laundered through another corporation to a limited
                                           investigation and recommendations,        contract allowed for this rate to be        CONTRACT SAVINGS                             liability corporation that the TCM created. Investigators and auditors
                                                                                                                                 ————————————————
 ALLEGATIONS OF WASTE                      TVA management agreed to add a            adjusted. TVA Contract personnel were                                                    worked closely together and established that the contractor improperly
                                                                                                                                 During the course of an investigation
 AND ABUSE INVOLVING                       head fire protection foreman position     unaware the retail contract included                                                     influenced the TCM in performing a public contract. 
                                                                                                                                 into misconduct of a TVA vendor, it
 BROWNS FERRY NUCLEAR                      to the FPG staff that reports to the      a fixed rate; however, TVA Customer
                                                                                                                                 was determined that the vendor was
 PLANT (BFN) FIRE                          FPG manager. In addition, a policy        Service personnel were aware the rate                                                    The collaborative effort led to a felony conviction in federal court in the
                                                                                                                                 being awarded a new multi-million
 PROTECTION GROUP WORK                     will be implemented requiring an FPG      was fixed. A former TVA Customer                                                         Eastern District of Tennessee for false statement because of failing to
                                                                                                                                 dollar contract for work at a TVA
 SCHEDULING                                member to be present at all scheduling    Service manager received an email from                                                   report the proceeds from the contractor on the financial disclosure form
                                                                                                                                 nuclear plant.  As a result of information
 ————————————————                          and review group meetings.                a Contracts and Pricing representative                                                   completed by the TCM. Additional administrative actions are pending
                                                                                                                                 provided to TVA management by the
 We investigated an allegation that                                                  stating the five-year fixed rate should                                                  against the contractor.
                                                                                                                                 OIG, TVA management disqualified the
 waste and abuse was occurring in the      CONTRACT ISSUES RELATED                   not be included in the retail contract.
                                                                                                                                 initial bid winner based on this vendor’s
 Fire Protection Group (FPG) at BFN,       TO WHOLESALE BILLING                      During our investigation, the Customer
                                                                                                                                 previous misconduct.  The contract
 the primary cause of which was a          CREDITS                                   Service manager did not recall reading
                                                                                                                                 was awarded to another vendor for a
 dysfunctional work package scheduling     ————————————————                          the email.
                                                                                                                                 cost of $3,163,537 less than what TVA
 system. The complainant alleged the       During an OIG audit of Murphy
                                                                                                                                 would have paid the initial contract bid
 FPG scheduled its own work and the        Electric Power Board (Murphy), a          After the customer went out of business,
                                                                                                                                 winner. The vendor that ultimately
 individual responsible for scheduling     billing issue was identified which        TVA’s Office of the General Counsel
                                                                                                                                 received the award was determined to
 work had stopped scheduling corrective    resulted in Murphy receiving an           (OGC) was consulted to determine if
                                                                                                                                 have offered the best pricing and was
 action and maintenance packages and       additional $174,451 in wholesale          TVA could recover the money from
                                                                                                                                 found to have the necessary expertise
 was not being held accountable by the     credits. It was determined the billing    Murphy. OGC advised that TVA
                                                                                                                                 available to provide a satisfactory
 FPG Manager. As a result, a backlog       issue occurred because of a difference    Customer Service’s knowledge of the
                                                                                                                                 product.
 of fire protection maintenance work       between Murphy’s retail contract with a   fixed rate in the retail contract would
 had not been addressed and a Nuclear      customer and Murphy’s wholesale           make it difficult to recover any funds.
                                                                                                                                       Investigations and Audits
                                                                                                                                                   team members

TVA   46    OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                          SEMIANNUAL REPOR T | April 1 – September 30, 2010         TVA     47       OIG
                              Legislation and Regulations
                              In fulfilling its responsibilities under the IG Act of 1978, as amended,
                              the OIG follows and reviews existing and proposed legislation and
                              regulations that relate to the mandate, operations and programs of
                              TVA. Although TVA’s Office of the General Counsel reviews proposed
                              or enacted legislation that could affect TVA activities, the OIG
                              independently follows and reviews proposed legislation that affects
                              the OIG and/or relates to economy and efficiency or waste, fraud, and
                              abuse of TVA programs or operations.


                              The TVA OIG has been tracking the           services from non-profit agencies for        sites. H.R. 5815 additionally grants
                              following major pieces of legislation       the blind and for people with certain        testimonial subpoena authority to
                              during the past six months:                 other significant disabilities, and would    IGs. Finally, this legislation requires
                                                                          establish an IG with authority to            agencies to take corrective action in
                              P.L. 111-203 – THE DODD-                    investigate federal agency compliance        response to any questioned costs, any
                              FRANK WALL STREET                           with the Act in consultation with            recommendation that funds be put to
                              REFORM AND CONSUMER                         other IGs.                                   better use, or any significant problems,
                              PROTECTION ACT
Legislation and Regulations
                                                                                                                       abuses, or deficiencies identified by IGs.
                              ————————————————                            H.R. 5815 – THE INSPECTOR
                              This legislation was signed into law on     GENERAL AUTHORITY                            S. 372 – THE WHISTLEBLOWER
                              July 21, 2010. Although the Act focuses     IMPROVEMENT ACT                              PROTECTION ENHANCEMENT
                              primarily on the financial services         ————————————————                             ACT
                              sector, it contains two provisions that     This legislation encompasses several         ————————————————
                              are relevant to all IGs. First, section     initiatives in support of Inspectors         This legislation was introduced in
                              989C amends the IG Act to require           General. H.R. 5815 would exempt              February 2009 and reported out of
                              IGs to report the results of peer reviews   IGs from provisions of the Paperwork         committee in July 2009. Section
                              conducted and those received in each        Reduction Act that would restrict the        120(a) of the bill as it is currently
                              semiannual period. Second, section          collection of information during an          written requires IGs to designate a
                              1505 requires GAO to conduct a              investigation, audit, evaluation or other    Whistleblower Protection Ombudsman
                              study of the relative independence,         review. The bill would also exempt           to educate, advise and advocate for
                              effectiveness, and expertise of all         IGs from certain restrictions in the         agency employees. CIGIE has objected
                              IGs. The report must also assess how        Privacy Act of 1974 that forbid the          to the placement of a whistleblower
                              amendments to the IG Act made               use of computer matching programs            ombudsman within the OIG offices
                              by Dodd-Frank will impact the               to compare federal records with other        because of the conflict that could
                              independence of each affected               federal records and non-federal records,     arise with the IG mandate to operate
                              agency’s OIG.                               in order that IGs be able to identify        independently and objectively from
                                                                          weaknesses that make a program               its agency. Recently the Homeland
                              H.R. 5983 – THE JAVITS –                    vulnerable to fraud, waste, or abuse         Security and Government Affairs
                              WAGNER – O’DAY ACT                          and to detect improper payments and          Committee proposed an amendment
                              ————————————————                            fraud. This legislation would also clarify   that would remove the advocacy role
                              This legislation would require federal      that IGs post all audit, inspection,         from Section 120(a).
                              agencies to procure products and            and evaluation reports on their Web



                                                                                      SEMIANNUAL REPOR T | April 1 – September 30, 2010        TVA      49      OIG
 P.L. 111-204 – THE
 IMPROPER PAYMENTS
 ELIMINATION IMPROVEMENT
 ACT
 ————————————————
 This legislation was signed into law on
 July 22, 2010. This legislation amends
 the Improper Payments Information
 Act of 2002 by requiring agencies to
 periodically identify and review all
 programs and activities susceptible to
 significant improper payments and to
 report on actions to reduce or recover
 improper payments. The legislation
 would require IGs to annually
 determine whether their agencies have
 complied with seven requirements in
 the Act and submit reports with their
 findings to the head of their agency, the
 Government Accountability Office,
 the Senate Committee on Homeland
 Security and Government Affairs, and
 the House Committee on Oversight and
 Government Reform. This legislation
 provides five percent of amounts
 collected through recovery audits may
 be made available to IGs to carry out
 the Act.

 S. 139 AND S. 1490 – DATA
 BREACH NOTIFICATION ACT
 ————————————————
 This bill was reported out of the Senate
 Judiciary Committee in September,
 and would require federal agencies
 to notify individuals and certain law
 enforcement agencies of security
 breaches of PII. As currently written,
 the bill would supersede any other
 federal law concerning notification of
 PII, including the Federal Information
 Security Management Act which
 requires agencies to notify their
 respective IGs in the event of a security
 incident. All of S. 139’s provisions have
 been incorporated into S. 1490, The
 Personal Data Privacy and Security Act.
 Both bills are currently awaiting action
 in the full Senate.                         Widows Creek Fossil Plant


TVA   50     OIG      SEMIANNUAL REPOR T | April 1 – September 30, 2010   SEMIANNUAL REPOR T | April 1 – September 30, 2010   TVA   51   OIG
             Appendix 1
                                                                                  INDEX ON REPORTING REQUIREMENTS
                                                                                                  UNDER THE IG ACT



                       REPORTING                                               REQUIREMENT                                              PAGE

                 Section 4(a)(2)               Review of Legislation and Regulations                                                     49-50

                 Section 5(a)(1)               Significant Problems, Abuses, and Deficiencies                                            25-47

                 Section 5(a)(2)               Recommendations With Respect to Significant Problems, Abuses,                             25-47
                                               and Deficiencies
                 Section 5(a)(3)               Recommendations Described in Previous Semiannual Reports in                             Appendix 4
                                               Which Corrective Action Has Not Been Completed
                 Section 5(a)(4)               Matters Referred to Prosecutive Authorities and the Prosecutions                        Appendix 5
                                               and Convictions That Have Resulted
                 Section 5(a)(5) and 6(b)(2)   Summary of Instances Where Information Was Refused                                        None

                 Section 5(a)(6)               Listing of Audit and Inspection Reports                                                 Appendix 2

                 Section 5(a)(7)               Summary of Particularly Significant Reports                                               25-47



Appendices
                 Section 5(a)(8)               Status of Management Decisions for Audit and Inspection Reports                         Appendix 3
                                               Containing Questioned Costs
                 Section 5(a)(9)               Status of Management Decisions for Audit and Inspection Reports                         Appendix 3
                                               Containing Recommendations That Funds Be Put to Better Use
                 Section 5(a)(10)              Summary of Audit and Inspection Reports Issued Prior to the Beginning of                  None
                                               the Reporting Period for Which No Management Decision Has Been Made
                 Section 5(a)(11)              Significant Revised Management Decisions                                                  None

                 Section 5(a)(12)              Significant Management Decisions With Which the Inspector General Disagreed               None

                 Section 5(a)(13)              Information under Federal Financial Management Improvement Act of 1996                    None

                 Section 5(a)(14)              Appendix of results of any peer review conducted by another Office of Inspector         Appendix 7
                                               General during the reporting period, and if none, a statement of the date of the last
                                               peer review.
                 Section 5(a)(15)              List of outstanding recommendations from any peer review conducted by another             None
                                               Office of Inspector General, including a statement describing the status of the
                                               implementation and why implementation is not complete.
                 Section 5(a)(16)              List of peer reviews conducted of another Office of the Inspector General during the    Appendix 8
                                               reporting period, including a list of any outstanding recommendations made from
                                               any previous peer review that remain outstanding or have not been implemented.




                                                                      SEMIANNUAL REPOR T | April 1 – September 30, 2010                   TVA       53   OIG
                                                      OIG AUDIT REPORTS ISSUED DURING THE THE SIX-MONTH
 Appendix 2                                                            PERIOD ENDED SEPTEMBER 30, 2010

      Report Number                                                                        Questioned   Unsupported   Funds to be Put
        and Date                                        Title                                   Costs         Costs     to Better Use
                                                                 CONTRACT AUDITS
      2009-12687      Welding Services, Inc.                                                 $320,700      $271,200               $0    Report Number                                                                           Questioned   Unsupported    Funds to be Put
      04/05/2010                                                                                                                          and Date                                        Title                                      Costs         Costs      to Better Use

      2008-12047      Sargent & Lundy                                                        $683,122           $0                $0                                                INFORMATION TECHNOLOGY AUDITS
      05/26/2010                                                                                                                        2009-12650      Use and Protection of Personally Identifiable Information                      $0              $0                $0
                                                                                                                                        05/19/2010
      2009-12670      Terra Industries, Inc.                                                 $188,231           $0                $0
      06/10/2010                                                                                                                        2008-11792-01   Pre-Implementation Review of Enterprise Asset Management System                $0              $0                $0
                                                                                                                                        05/25/2010      Post Phase 1 Implementation
      2009-12840      Underwater Construction Corporation                                    $643,700      $643,700               $0
      06/21/2010                                                                                                                        2009-12338      Enterprise Backup and Recovery                                                 $0              $0                $0
      2009-12558      KEMA, Inc.                                                             $234,406      $234,406               $0    06/04/2010
      07/12/2010                                                                                                                        2010-13208      SOX Primary Testing – F.57 CXL                                                 $0              $0                $0
      2009-12878      S&ME, Inc.                                                             $395,479       $75,611               $0    07/14/2010
      08/02/2010                                                                                                                        2010-13209      SOX Primary Testing – F.58 GasPro                                              $0              $0                $0
      2009-12349      National Inspection & Consultants, Inc.                                $159,662      $141,434               $0    07/19/2010
      08/05/2010                                                                                                                        2010-13156      SOX Primary Testing – F.24 HRIS                                                $0              $0                $0
      2010-13292      Preaward Review – Proposal to Provide EPU Services at Browns Ferry          $0            $0        $2,546,613    07/26/2010
      08/09/2010      Nuclear Plant
                                                                                                                                        2010-13157      SOX Primary Testing – F.19 Power Billing                                       $0              $0                $0
      2010-13387      Preaward Review – Proposal to Provide Facilities and Maintenance            $0            $0                $0    07/26/2010
      08/20/2010      Services at Bellefonte Nuclear Plant
                                                                                                                                        2010-13162      SOX Primary Testing – DS.12 Manage the Physical Environment                    $0              $0                $0
      2010-13212      Preaward Review – Proposal to Revise Contract Rate Structure                $0            $0       $11,148,952    07/26/2010
      09/27/2010                                                                                                                        2010-13154      SOX Primary Testing – F.28 eWorkplace                                          $0              $0                $0
                                                                DISTRIBUTOR AUDITS                                                      07/28/2010
      2009-12593      Chattanooga Electric Power Board                                            $0            $0                $0    2010-13160      SOX Primary Testing – F.20 MV90                                                $0              $0                $0
      07/26/2010                                                                                                                        07/28/2010
      2009-12510      Scottsboro Electric Power Board                                         $88,000           $0                $0    2010-13155      SOX Primary Testing – A.I6 Manage Changes                                      $0              $0                $0
      08/10/2010                                                                                                                        07/29/2010
      2009-12594      Lenoir City Utilities Board                                                 $0            $0                $0    2010-13159      SOX Primary Testing – A.I7 Install and Accredit Solutions and Changes          $0              $0                $0
      09/09/2010                                                                                                                        07/29/2010
      2010-13022      Dickson Electric System                                                     $0            $0                $0    2010-13161      SOX Primary Testing – F.42 Maximo                                              $0              $0                $0
      09/29/2010                                                                                                                        07/29/2010
                                                    FINANCIAL AND OPERATIONAL AUDITS                                                    2010-13152      SOX Primary Testing – DS.5 Ensure Systems Security                             $0              $0                $0
                                                                                                                                        07/30/2010
      2009-12291      Postponed/Cancelled Capital Projects – Nuclear                              $0            $0                $0
      04/09/2010                                                                                                                        2010-13153      SOX Primary Testing – F.15 CWMi                                                $0              $0                $0
                                                                                                                                        07/30/2010
      2009-12291-02   Postponed/Cancelled Capital Projects – Power System Operations              $0            $0                $0
      04/16/2010                                                                                                                        2010-13158      SOX Primary Testing – DS.11 Manage Data                                        $0              $0                $0
                                                                                                                                        07/30/2010
      2009-12291-03   Postponed/Cancelled Capital Projects – Fossil                               $0            $0                $0
      05/24/2010                                                                                                                        2010-13083      Protection of TVA Personally Identifiable Information Held by Third            $0              $0                $0
                                                                                                                                        08/24/2010      Parties
      2009-12291-04   Postponed/Cancelled Capital Projects – River Operations                     $0            $0                $0
      05/24/2010                                                                                                                        2010-13162-01   Process Improvements – DS.12 Manage the Physical Environment                   $0              $0                $0
                                                                                                                                        09/08/2010
      2010-13223
                      Performance of Agreed Upon Procedures for CRS Green-E Energy                $0            $0                $0    Total                                                                                   $2,713,300    $1,366,351       $13,695,565
      06/01/2010
                                                                                                                                        Audits (41)
      2009-12968      Follow-up Review of Contractor Tool Program for Watts Bar Nuclear           $0            $0                $0
      08/02/2010      Plant Unit 2 Construction Project
      2009-12916
                      Review of Bechtel’s Management of Subcontractors                            $0            $0                $0
      08/26/2010
      2009-12728
                      Review of Recreational Land Transactions                                    $0            $0                $0
      09/15/2010
      2010-13108
                      Review of Counterparty Credit Risk                                          $0            $0                $0
      09/29/2010




TVA   54     OIG      SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                            SEMIANNUAL REPOR T | April 1 – September 30, 2010        TVA     55        OIG
                                                                                                                                                     Appendix 3

                                                      OIG INSPECTION REPORTS ISSUED DURING THE SIX-MONTH                                                  TABLE I TOTAL QUESTIONED AND UNSUPPORTED COSTS	                                                                                          AUDITS
                                                                        PERIOD ENDED SEPTEMBER 30, 2010

       Report Number                                                                                    Questioned   Unsupported   Funds to be Put                                                                                                                        Questioned              Unsupported
         and Date                                           Title                                            Costs         Costs     to Better Use                                       Audit Reports                                        Number of Reports                Costs                    Costs
       2009-12651-01      Peer Review of Power Engineering’s Safe Use Assessment of Wheeler                    $0            $0                $0         A. For which no management decision has been made by the
       05/11/2010         Hydro Unit 1                                                                                                                       commencement of the period                                                                 1                   $175,094                        $0

       2008-11829         Review of TVA Records Retention                                                      $0            $0                $0         B. Which were issued during the reporting period
       06/02/2010                                                                                                                                                                                                                                       8                  $2,713,300               $1,366,351

       2009-12910-01      Peer Review of the Stability Analysis of Dike C at the Kingston Fossil               $0            $0                $0         Subtotal (A+B)                                                                                9                  $2,888,394               $1,366,351
       08/02/2010         Plant
                                                                                                                                                          C. For which a management decision was made during the
       2007-11402         Review of TVA’s Environmental Performance Results                                    $0            $0                $0                                                                                                      91                  $2,888,394               $1,366,351
                                                                                                                                                             reporting period
       08/03/2010
       2008-12283-06      Review of the Long Term Environmental Recovery Plan for Kingston                     $0            $0                $0           1. Dollar value of disallowed costs
       09/21/2010                                                                                                                                                                                                                                       8                  $1,878,908                $681,217

       2009-12915         Inspector General Criminal Investigator Academy                                      $0            $0                $0           2. Dollar value of costs not disallowed
       09/21/2010                                                                                                                                                                                                                                       4                  $1,009,486                $685,134
       2008-12283-08      Review of TVA’s Plans for Offsite Transportation and Disposal of Ash                 $0            $0                $0         D. For which no management decision has been made by the end
       09/22/2010         from Kingston                                                                                                                                                                                                                 0                           $0                      $0
                                                                                                                                                             of the reporting period
       2010-13034         Review of TVA’s Kingston Ash Spill Clean-up and Recovery Efforts                     $0            $0                $0
       09/22/2010                                                                                                                                         E. For which no management decision was made within
                                                                                                                                                             six months of issuance                                                                     0                           $0                      $0
       2009-12910-02      Peer Review of Dike C Buttressing                                                    $0            $0                $0
       09/23/2010
       Total                                                                                                                                          1
                                                                                                                                                          The total number of reports for which a managment decision was made during the reporting period differs from the sum of C(1) and C(2)
       Inspections (9)                                                                                                                                    when the same report(s) contain both recommendations agreed to by management and others not agreed to by management.


                                                                                                                                                          TABLE I TOTAL QUESTIONED AND UNSUPPORTED COSTS	                                                                                INSPECTIONS
      Note: A summary of or link to OIG reports may be found on the OIG’s Web site at www.oig.tva.gov

                                                                                                                                                                                                                                                        Questioned
                                                                                                                                                                            Inspections Reports                            Number of Reports                 Costs                         Unsupported Costs
                                                                                                                                                          A. For which no management decision has been made
                                                                                                                                                             by the commencement of the period                                       0                            $0                                        $0

                                                                                                                                                          B. Which were issued during the reporting period
                                                                                                                                                                                                                                     0                            $0                                        $0

                                                                                                                                                          Subtotal (A+B)                                                             0                            $0                                        $0
                                                                                                                                                          C. For which a management decision was made during
                                                                                                                                                             the reporting period                                                    0                            $0                                        $0

                                                                                                                                                            1. Dollar value of disallowed costs
                                                                                                                                                                                                                                     0                            $0                                        $0

                                                                                                                                                            2. Dollar value of costs not disallowed
                                                                                                                                                                                                                                     0                            $0                                        $0

                                                                                                                                                          D. For which no management decision has been made
                                                                                                                                                             by the end of the reporting period                                      0                            $0                                        $0

                                                                                                                                                          E. For which no management decision was made
                                                                                                                                                             within six months of issuance                                           0                            $0                                        $0




TVA   56       OIG         SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                                            SEMIANNUAL REPOR T | April 1 – September 30, 2010                   TVA        57        OIG
                                                                                                                             Appendix 4

       TABLE I I TOTAL FUNDS TO BE PUT TO BETTER USE	                                                         AUDITS



                                Audit Reports                            Number of Reports   Funds to be put to better use
      A. For which no management decision has been made by the                                                               AUDIT AND INSPECTION REPORTS WITH CORRECTIVE ACTIONS PENDING
         commencement of the period                                              1                               $148,600
                                                                                                                             As of the end of the semiannual period, final corrective actions associated with six audits and five inspections were not completed
      B. Which were issued during the reporting period                                                                       within one year of the final report date. Presented below for each audit and inspection are the report number, date, a brief
                                                                                2                             $13,695,565
                                                                                                                             description of the open recommendation(s) and the date management expects to complete final action, if available.
      Subtotal (A+B)                                                            3                             $13,844,165
      C. For which a management decision was made during the                                                                    Audit Report
                                                                                                                                                                       Report Title and Recommendation(s) for which Final Action is Not Complete
                                                                                1                                $148,600     Number and Date
         reporting period

        1. Dollar value of recommendations agreed to by management                                                                                Review of TVA Actions to Protect Social Security Numbers and Eliminate Their Unnecessary Use
                                                                                1                                $148,600
                                                                                                                              2007-11216          TVA agreed to implement protective measures for applications and reports containing social security numbers (SSN)
        2. Dollar value of recommendations not agreed to by                                                                   06/02/2008          and remediate and incorporate into the Enterprise Information Management strategy identification of SSN usage in
           management                                                           0                                      $0                         documents, databases, and other electronic files. Management is targeting final action to be completed by
                                                                                                                                                  December 31, 2010.
      D. For which no management decision has been made
         by the end of the reporting period                                     2                             $13,695,565
                                                                                                                                                  IT Security Organizational Effectiveness
                                                                                                                              2007-11348-01
      E. For which no management decision was made within                                                                     03/26/2008          TVA agreed to review and align Information Technology (IT) Security policies and procedures and establish and manage
         six months of issuance                                                 0                                      $0                         IT Security performance metrics. Management is targeting final action to be completed by November 30, 2010.

                                                                                                                                                  Sequoyah Nuclear Plant – Cyber Security Assessment
                                                                                                                              2007-11388
                                                                                                                              08/21/2008          TVA agreed to implement protective measures to address the weaknesses identified for the plant and business
                                                                                                                                                  networks. Management is targeting final action to be completed by June 30, 2011.

      TABLE I I TOTAL FUNDS TO BE PUT TO BETTER USE	                                                INSPECTIONS                                   TVA Telework Initiatives
                                                                                                                              2008-11942
                                                                                                                                                  TVA agreed to work with other intercompany organizations to determine which jobs and functions are conducive to
                                                                                                                              11/20/2008
                                                                                                                                                  telework and consider a pilot program that would inform future decisions about telework. Management is targeting
                             Inspections Reports                         Number of Reports   Funds to be put to better use                        final action to be completed by November 19, 2010.

      A. For which no management decision has been made by the                                                                                    Contractor Workforce Management (CWM) – Access and General Control Review
         commencement of the period                                              0                                     $0     2008-11965
                                                                                                                              02/04/2009          TVA is currently undergoing a request for proposal process to either replace or upgrade the existing CWM system. TVA
      B. Which were issued during the reporting period                                                                                            plans to have the new system in place by March 31, 2011.
                                                                                0                                      $0
                                                                                                                                                  Hydroelectric Plant Automation – General, Physical, and Security Controls Review
      Subtotal (A+B)                                                            0                                      $0     2008-12127
                                                                                                                                                  TVA agreed to implement the new access control system at all sites and further restrict access to key components and
                                                                                                                              09/24/2009
      C. For which a management decision was made during the                                                                                      develop a process to evaluate audit findings and recommendations to ensure findings are addressed across all systems.
         reporting period                                                       0                                      $0                         Management is targeting final action to be completed by June 1, 2013.

        1. Dollar value of recommendations agreed to by management
                                                                                0                                      $0

        2. Dollar value of recommendations not agreed to by
           management                                                           0                                      $0

      D. For which no management decision has been made
         by the end of the reporting period                                     0                                      $0

      E. For which no management decision was made within
         six months of issuance                                                 0                                      $0




TVA    58       OIG        SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                            SEMIANNUAL REPOR T | April 1 – September 30, 2010               TVA       59      OIG
                                                                                                                                                   Appendix 5




      Inspection Report
                                               Report Title and Recommendation(s) for which Final Action is Not Complete                           INVESTIGATIVE REFERRALS AND PROSPECTIVE RESULTS1
      Number and Date
                          Review of Physical and Environmental Controls for the Chattanooga Data Center
                                                                                                                                                       Subtotal (A+B)
      2005-518I           TVA agreed to replace the Chattanooga office complex telephone system with a system operating on the Internet
                                                                                                                                                       Referrals
                          protocol to eliminate three control issues identified during the review. Implementation of the new communication
      08/31/2005
                          system has been delayed by management due to what is considered higher priority projects. Management is targeting
                                                                                                                                                       	           Subjects Referred to U.S. Attorneys                                                         51
                          final action to be completed by December 31, 2012.
                          Inspection of TVA’s Role as a Regulator
                                                                                                                                                       	           Subjects Referred to State/Local Authorities                                                 2
      2005-522I           TVA agreed to formalize procedures for reviewing distributor financial information and business plans for the use
      06/13/2006          of electric system revenues for non-electric purposes. Management is targeting final action to be completed by
                          November 30, 2011.                                                                                                           Results

                          Review of Contractor Background Checks Applicable to the Watts Bar Nuclear Plant Unit Two Construction                       	           Subject Indicted                                                                             7
                          Completion Project
      2007-11443
                          TVA agreed to determine what changes are necessary to the background checks for WBN Unit 2 and if any changes                	           Subjects Convicted                                                                           8
      09/30/2008
                          are required to TVA policy. We identified some TVA policy compliance issues and opportunities to strengthen the
                          background check process. Management is targeting final action to be completed by December 31, 2010.
                                                                                                                                                       	           Pretrial Diversion                                                                           1
                          Distributor Review of Monroe County Electric Power Authority
                          TVA agreed to (1) recommend to the TVA Board of Directors to increase the threshold for requiring customer contracts         	           Referrals Declined                                                                          34
      2008-12007          to one Megawatt, (2) consider feasibility of a comprehensive guideline for permissible expenditures, (3) recommend to
      05/13/2009          the Board that additional financial metrics, including when cash reserves become excessive, be implemented in the rate
                          setting process, and (4) work with Tennessee Valley Public Power Authority to develop recommendations on common
                          meter testing criteria. Management is targeting final action to be completed by November 30, 2011.
                          Distributor Review of Lewisburg Electric System
                                                                                                                                                   1
                                                                                                                                                       These numbers include task force activities and joint investigations with other agencies.
      2008-12040          TVA agreed to (1) recommend to the TVA Board of Directors to increase the threshold for requiring customer
                          contracts to one Megawatt, (2) consider feasibility of a comprehensive guideline for permissible expenditures, and
      05/13/2009
                          (3) recommend to the Board that additional financial metrics, including when cash reserves become excessive, be
                          implemented in the rate setting process. Management is targeting final action to be completed by November 30, 2011.




TVA    60      OIG        SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                                               SEMIANNUAL REPOR T | April 1 – September 30, 2010   TVA   61   OIG
                                                                                                          HIGHLIGHTS - STATISTICS
 Appendix 6                                                                                                                                                 Appendix 7
                                                         SEPT 30,               MAR 31,              SEPT 30,            MAR 31,            SEPT 30,

                                                                                                                                                            Peer Reviews of the TVA OIG
                                                           2010                  2010                 2009                2009                2008
      AUDITS
      AUDIT STATISTICS
      Carried Forward                                                60                  44                  70                   28                 47
      Started                                                        28                  46                  46                   59                 53     AUDITS PEER REVIEW
      Cancelled                                                     (7)                 (4)                 (6)                  (3)                (2)     Audit organizations are required to undergo an external peer review at least
      Completed                                                    (41)                (26)                (66)                 (14)               (70)     once every three years. The TVA OIG audit organization’s 2010 peer review
      In Progress at End of Reporting Period                         40                  60                  44                   70                 28     is in progress and scheduled to be completed during the next semiannual
                                                                                                                                                            period. The Corporation for National and Community Service (CNCS) OIG
      AUDIT RESULTS (Thousands)
      Questioned Costs                                          $2,713               $980               $6,744               $1,226             $3,609
                                                                                                                                                            completed the audit organization’s most recent peer review on December 18,
      Disallowed by TVA                                          1,879               2,255               2,799                  829              1,802      2007. TVA OIG received an unqualified opinion from CNCS OIG in which
      Recovered by TVA                                           2,807               2,999                 909                  644                676      it reported “the system of quality control for the audit function of TVA OIG in
                                                                                                                                                            effect for the year ended September 30, 2007, has been designed to meet the
      Funds to Be Put to Better Use                        $13,696                  $9,703             $50,570                   $0            $28,653      requirements of the quality control standards established by the Comptroller
      Agreed to by TVA                                         149                   8,853               4,723                    0             28,120
                                                                                                                                                            General of the United States for a federal government audit organization and
      Realized by TVA                                        2,091                     480               4,395                    0             26,460
                                                                                                                                                            was complied with during the year ended September 30, 2007, to provide
      OTHER AUDIT-RELATED PROJECTS                                                                                                                          TVA OIG with reasonable assurance of conforming with applicable auditing
      Completed                                                     27                  10                   16                   8                   7     standards, policies, and procedures.” No significant weaknesses were identified
      Cost Savings Identified/Realized (Thousands)                  $0                  $0                   $0                  $0                  $0     by CNCS OIG in its review and accordingly, no letter of comment was issued.
                                                                                                                                                            The 2007 peer review report can be found on the TVA OIG Web page at
      INSPECTIONS                                                                                                                                           http://oig.tva.gov/peer-review.html.
      Completed                                                      9                   2                   21                   4                  16
      Cost Savings Identified/Realized (Thousands)                  $0                  $0                   $0                  $0                  $0
                                                                                                                                                            INVESTIGATIONS PEER REVIEW
                                                                                                                                                            Investigative organizations undergo an external peer review (Quality
      INVESTIGATIONS1
      INVESTIGATION CASELOAD
                                                                                                                                                            Assessment Review) at least once every three years. The TVA OIG
      Opened                                                       199                 168                 194                  171                161      Investigative Operations’ 2010 peer review is in progress and scheduled to be
      Closed                                                       221                 198                 223                   91                135      completed during the next semiannual period. The United States Railroad
      In Progress at End of Reporting Period                       167                 189 2               251                  280                200      Retirement Board (USRB) OIG completed the most recent peer review of
                                                                                                                                                            our investigative operations on August 28, 2007. The USRB OIG reported
      INVESTIGATION RESULTS (Thousands)
                                                                                                                                                            the system of internal safeguards and management procedures for the
      Recoveries                                                 $36.2               $41.8               $20.6           $10,725.3              $632.6
                                                                                                                                                            investigative function of the TVA OIG in effect as of July 2007 were compliant
      Savings                                                    4,028                   0               472.1                   0                   0
      Fines/Penalties                                               5.8                5.9                  .4               352.7                 1.6      with the quality standards established by the PCIE and the Attorney General
                                                                                                                                                            guidelines. There are no outstanding recommendations from this peer review.
      MANAGEMENT ACTIONS                                                                                                                                    The 2007 Quality Assessment Review report can be found on the TVA OIG
      Disciplinary Actions Taken (# of Subjects)                    15                    7                   6                    3                 15     Web page at http://oig.tva.gov/peer-review.html.
      Counseling/Management Techniques Employed
                                                                    31                  25                   10                    1                  6
       (# of Cases)


      PROSECUTIVE ACTIVITIES (# of Subjects)
      Referred to U.S. Attorneys                                    51                  16                   45                  18                   7
      Referred to State/Local Authorities3                           2                   2                    6                  —                   —
      Indicted                                                       7                   4                    3                   4                  14
      Convicted                                                      8                   3                    3                   3                   3
      Pretrial Diversion                                             1                   2                    0                   0                   1

                                                           1
                                                                These numbers include task force activities and joint investigations with other agencies.
                                                           2
                                                                Adjusted from the previous period.
                                                           3
                                                                Category added in semiannual period ended September 30, 2009.

TVA   62      OIG        SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                                      SEMIANNUAL REPOR T | April 1 – September 30, 2010   TVA   63   OIG
     Appendix 8

     Peer Review Performed by the TVA OIG
     At the request of the Special Inspector General for                                   ended April 16, 2010, was not in compliance1 with the                                   investigative policies and procedures in place prior to       of the agency’s existence (seven months) did not
     Afghanistan Reconstruction (SIGAR), the Chair of the                                  quality standards established by the PCIE/ECIE, the                                     March 2010, and therefore no investigative activities         meet the law enforcement training requirements set
     Council of the Inspectors General on Integrity and                                    CIGIE, and relevant Attorney General guidelines. The                                    in compliance therewith. Policies and procedures              forth in the Attorney General Guidelines for Offices of
     Efficiency (CIGIE), requested that the chairman of the                                opinion was based on ten reportable findings which                                      found in the SIGAR Agent Manual were almost                   Inspector General With Statutory Law Enforcement
     CIGIE Audit Committee (Jon Rymer) and the chairman                                    represented weaknesses and opportunities for improvement                                entirely verbatim copies of policies and procedures           Authority (2003) (Section IV(A)). The QAR team
     of the CIGIE Investigations Committee (Richard Moore)                                 in the areas of policies and procedures, training, training                             borrowed from the Special Inspector General for Iraq          did note, however, that all of the more recently hired
     lead a multi-agency team to conduct audit and investigative                           records, planning, case prioritization, and electronic file                             Reconstruction (hereafter SIGIR). Many of these               investigators have had academy-level training and
     operations peer reviews and a management and operations                               and information management systems. The safeguards                                      borrowed policies and procedures bore watermarks              are generally very experienced criminal investigators.
     review of SIGAR. The normal practice is to wait until                                 and management procedures in this organization did                                      (evidently as received from SIGIR) indicating they            SIGAR’s current practice and recently adopted policies
     at least the third year of an IG’s existence before a peer                            not provide reasonable assurance of conforming with                                     were in draft form. Policies not coming from the              do comply with this requirement.
     review is conducted; however, the SIGAR requested the                                 professional standards in the conduct of its investigations                             SIGIR manual were largely formulated and formally
     review about 19 months into the organization’s existence to                           from the inception of the office of the SIGAR to April 16,                              adopted in the weeks immediately preceding the QAR,       Remediation status according to SIGAR: As noted in the
     assist in identifying needed improvements.                                            2010.                                                                                   and were virtual mirrors of the QAR standards which       finding, hiring policies and practices complying with the
                                                                                                                                                                                   lacked implementation processes. This finding covers      Attorney General Guidelines were in place at the time of
     Rymer and Moore led a team comprised of representatives                               The immediate consequence of this determination was                                     the period prior to March 25, 2010, and applies to        the onsite review. SIGAR continues to hire in compliance
     from the TVA, Federal Deposit Insurance Corporation,                                  that Inspector General Richard Moore, chairman of                                       every aspect of the standardized CIGIE Qualitative        with the Guidelines.
     Department of Defense, Department of the Interior,                                    the CIGIE Investigations Committee, forwarded the                                       Assessment Review Guidelines for Federal Offices of
     Department of State, U.S. Department of Agriculture, and                              report to the Attorney General of the United States to                                  Inspector General (May 2009) (Appendices B and            3.	 The Attorney General Guidelines for Offices of
     U.S. Agency for International Development offices of the                              consider whether SIGAR’s law enforcement powers                                         C-1).                                                         Inspector General With Statutory Law Enforcement
     Inspectors General (OIG) to perform the reviews. The                                  should be suspended, pending correction of the identified                                                                                             Authority (2003) (Section IV(A)) also require that
     audit peer review was led by the FDIC OIG and those                                   deficiencies. The investigative peer review team stated that                        Remediation status according to SIGAR: SIGAR-specific             the OIG provide periodic refresher training to its
     results will be reported in the FDIC OIG semiannual                                   these deficiencies, while significant, could be remedied                            policies and procedures have been formally drafted,               agents. SIGAR’s Investigations Directorate had
     report to Congress. The management and operations                                     by SIGAR over time, given the commitment of SIGAR’s                                 adopted, codified and disseminated to affected personnel.         no infrastructure which captured specific training
     review was an evaluation, based on the team’s collective                              investigative staff to implement the required policies and                                                                                            received during the review period and, as such, there
     knowledge and experience, as to whether SIGAR’s                                       procedures. SIGAR generally concurred with the findings                             2.	 The Attorney General Guidelines for Offices of                were insufficient training records to substantiate
     practices aligned with the Quality Standards for Federal                              included in the peer review report. The investigative                                   Inspector General With Statutory Law Enforcement              agency-wide compliance with this standard. No clear
     Offices of Inspector General (Silver Book) and to what                                operations peer review report is posted on SIGAR’s Web                                  Authority (2003) (Section IV(A)) require that OIGs            anecdotal evidence mitigated this finding.
     extent SIGAR had implemented those practices. This                                    site at http://www.sigar.mil/pdf/peer_review/Section5.pdf                               certify that individuals exercising law enforcement
     review focused on activities not subject to the audit and                                                                                                                     powers have completed Basic Criminal Investigator         Remediation status according to SIGAR: Periodic
     investigative peer reviews and provided observations and                              The ten reportable findings are listed below with                                       Course at Federal Law Enforcement Training Center         refresher training is being afforded agents in compliance
     suggestions for improvement.                                                          remediation status as reported by SIGAR. There has been                                 (FLETC) or a comparable course of instruction.            with the Attorney General Guidelines, and a system of
                                                                                           no independent verification of the remediation reported by                              SIGAR’s Investigations Directorate effectively began      records retention has been implemented to capture and
     On July 14, 2010, a team led by the TVA OIG completed                                 SIGAR but an on-site review to confirm what SIGAR has                                   in early 2009 with two investigators and later, in the    maintain documentation of such training.
     the investigative operations peer review. The review                                  reported to the TVA OIG is anticipated in the near future.                              fall of 2009, an Acting Assistant Inspector General
     resulted in a determination that the system of internal                                                                                                                       (Investigations) (A-AIGI). One of the two investigators   4.	 The Attorney General Guidelines for Offices of
     safeguards and management procedures for the                                          1.	 Investigations Directorate Policies and Procedures:                                 had received academy-level training. Neither the              Inspector General With Statutory Law Enforcement
     investigative function of SIGAR in effect for the period                                    In sum and substance, there were nearly no official                               other investigator nor the A-AIGI, both experienced           Authority (2003) (Section IV(B)) require that eligible
                                                                                                                                                                                   licensed attorneys, had received such training. This          individuals receive initial and periodic firearms
                                                                                                                                                                                   is considered worthy of note in the context of the            training and recertification in accordance with
 1   Noncompliant. A rating of non-compliance indicates a breakdown in practices, programs and/or policies that had an actual notable adverse impact on, or has a
     likelihood of materially affecting, the integrity of the investigative process (e.g., planning, conducting, reporting) or law enforcement operations (i.e., powers con-       truncated period of review. In effect, half of the            FLETC standards. SIGAR’s Investigations Directorate
     ferred by the IG Act). A reportable finding is defined as a material failure to conform to applicable standards—the Attorney General Guidelines for Statutory Law
     Enforcement Authority and/or the PCIE/ECIE Quality Standards for Investigation. A reportable finding can result from a material failure in one critical area as well          investigators for roughly half the operational duration       had no infrastructure which captured firearms training
     as a series of weaknesses across multiple areas that have a cumulative adverse impact on the organization’s ability to adequately comply with the PCIE/ECIE QSI
     and/or Attorney General Guidelines.


TVA        64        OIG         SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                                                                  SEMIANNUAL REPOR T | April 1 – September 30, 2010   TVA       65     OIG
      received during the review period, and as such there            lacked an adopted, documented and agency-wide                   2009, files were practically maintained in raw form            the peer review team universally agreed that the
      were insufficient training records to substantiate              prioritization document during nearly all of the review         in Afghanistan. In November 2009, a simple but                 adoption and deployment of a functional electronic
      agency-wide compliance with this standard. No clear             period.                                                         generally effective and efficient case management              information system would reduce SIGAR’s information
      anecdotal evidence mitigated this finding.                                                                                      system was developed at SIGAR’s headquarters.                  management related issues.
                                                                  Remediation status according to SIGAR: SIGAR has                    Though no policy was put in place at the time, a
 Remediation status according to SIGAR: Periodic                  formally adopted organizational and case specific priorities,       practice did develop which sufficiently centralized        Remediation status according to SIGAR: Continuous
 firearms training and recertification is being afforded          as well as objectives to ensure case tasks are performed            information management functions. The most                 efforts have been made to identify, acquire and deploy a
 agents in compliance with the Attorney General                   efficiently and effectively. SIGAR’s Investigations                 debilitating variable in this regard noted by the peer     suitable electronic system. The hard copy system currently
 Guidelines, and a system of records retention has been           Directorate has adopted an agency-wide prioritization               review team, and shared by SIGAR management, is            in place has been refined to assist management in carrying
 implemented to capture and maintain documentation                document.                                                           the lack of an electronic file maintenance system. The     out its responsibilities.
 of such training.                                                	                                                                   team noted that SIGAR management is aggressively
                                                                  7.	 The Quality Standards for Investigations, Qualitative           pursuing the identification of such a system, and          10.	 The Quality Standards for Investigations, Qualitative
 5.	 The Attorney General Guidelines for Offices of                    Standards, Section A, p. 8, also require a basic,              information management issues are likely to diminish           Standards, Section D, p. 14, require that case files
      Inspector General With Statutory Law Enforcement                 single-source planning document that presents the              rapidly following adoption and deployment.                     be established immediately upon the opening and
      Authority (2003) (Section IV(C)) require that                    organization’s goals, allocation of resources, budget                                                                         assignment of investigations. SIGAR’s Investigations
      OIGs receive training on and adopt Department of                 guidance, performance measures, and a guide for            Remediation status according to SIGAR: SIGAR has                   Directorate file management system was not in place
      Justice deadly force policy. SIGAR’s Investigations              managers to implement these plans. SIGAR had not,          identified and tasked an organizational component with             until November 2009. As such, beyond “working
      Directorate had no infrastructure which captured                 at the time of onsite review, adopted such a planning      the responsibility of record maintenance and specific              files” maintained by investigators in the field, it was
      training received relating to the DOJ deadly force               document in the form of a Strategic Plan or other          procedures to be performed. Though SIGAR’s system                  impossible for the peer review team to independently
      policy during the review period. As such there were              similar instrument.                                        of records and file maintenance remains in hard copy,              validate compliance with this standard. However,
      insufficient training records and no clear anecdotal                                                                        continuous efforts have been made to identify, acquire and         the peer review team did note that practices in place
      evidence to substantiate agency-wide compliance with        Remediation status according to SIGAR: SIGAR                    deploy a suitable electronic system.                               by the time of the onsite review did comply with this
      this standard.                                              has adopted a single-source planning document that              	                                                                  requirement.
                                                                  presents the organization’s goals, allocation of resources,     9.	 The Quality Standards for Investigations, Qualitative
 Remediation status according to SIGAR: SIGAR has                 budget guidance, performance measures, and a guide for               Standards, Section D, p. 13, 14, require that an          Remediation status according to SIGAR: SIGAR’s file
 adopted the Department of Justice deadly force policy            managers to implement these plans.                                   organization’s management information system collect      management system in place at the time of the review was,
 as required by the Attorney General Guidelines, and all          	                                                                    the data needed to assist management in performing        and remains, in compliance with the Quality Standards for
 agents receive training on the subject. A system of records      8.	 The Quality Standards for Investigations, Qualitative            its responsibilities, measuring its accomplishments,      Investigations. As noted above, efforts continue to identify,
 retention has been implemented to capture and maintain               Standards, Section D, p. 12, 13, require that an                 and responding to external customers. SIGAR’s             acquire and deploy a suitable electronic system.
 documentation of such training.                                      organization have an organizational component                    Investigations Directorate information management
                                                                      responsible for record maintenance and specific                  system did not exist in any identifiable capacity until
 6.	 The Quality Standards for Investigations, Qualitative            procedures to be performed. SIGAR did not, prior to              approximately late November 2009. While the file
      Standards, Section A, p. 8, require that OIG                    the review, have such a component identified. This               management system created in November 2009, is
      investigative organizations establish organizational and        standard is in the context of information management             adequate for day-to-day operations, the system at the
      case specific priorities and develop objectives to ensure       standards which dictate that investigative data be               time of review lacked the power to assist management
      that individual case tasks are performed efficiently            stored in a manner allowing effective retrieval, cross-          in the conduct of its responsibilities. As noted above,
      and effectively. SIGAR’s Investigations Directorate             referencing, and analysis. Prior to late November




TVA   66     OIG       SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                                               SEMIANNUAL REPOR T | April 1 – September 30, 2010     TVA     67        OIG
 Glossary                                                                         Abbreviations and Acronyms

                                                                                  THE FOLLOWING ARE ACRONYMS AND ABBREVIATIONS WIDELY USED IN THIS
                                                                                  REPORT.



 Disallowed Cost – A questioned cost that management, in a management             BFN	������������������������������������� Browns Ferry Nuclear Plant                    IT	������������������������������������������������Information Technology
 decision, has sustained or agreed should not be charged to the agency.           BUs	�������������������������������������������������������������Business Units         KIF	�������������������������������������������������� Kingston Fossil Plant

 Final Action – The completion of all management actions, as described in a       CC	�������������������������������������������������������� Corporate Credit            L&SM	������������������������Land and Shoreline Management
 management decision, with respect to audit findings and recommendations.         CEDARS	��������� Center for Economic Development and                                    Marshall Miller	����������Marshall Miller & Associates, Inc.
 When management concludes no action is necessary, final action occurs when                                        Resource Stewardship
                                                                                                                                                                          Murphy	���������������������������� Murphy Electric Power Board
 a management decision is made.                                                   CEO	������������������������������������������� Chief Executive Officer
                                                                                                                                                                          NAGC	��������������������National Association of Government
                                                                                  CERCLA	����� Comprehensive Environmental Response,                                                                                   Communicators
 Funds Put To Better Use – Funds, which the OIG has disclosed in an audit                              Compensation and Liability Act
 report, that could be used more efficiently by reducing outlays, deobligating                                                                                            NRC	�����������������������������Nuclear Regulatory Commission
                                                                                  CIGIE........... Council of Inspectors General on Integrity
 program or operational funds, avoiding unnecessary expenditures, or taking                                                                                               OGC	��������������������������������Office of the General Counsel
                                                                                                                             and Efficiency
 other efficiency measures.
                                                                                  CIR	��������������������������������������������� Competitive Index Rate                OHI	�������������������������������������Organizational Health Index

 Management Decision – The evaluation by management of the audit findings         COC	���������������������������������Chattanooga Office Complex                         OIG	�������������������������������� Office of the Inspector General
 and recommendations and the issuance of a final decision by management                                                                                                   O&M	�������������������������������� Operations and Maintenance
                                                                                  CT	���������������������������������������������������Combustion Turbine
 concerning its response to such findings and recommendations.
                                                                                  EE/CA	������������������Engineering Evaluation/Cost Analysis                            OWCP ....... Office of Workers’ Compensation Programs

 Questioned Cost – A cost the IG questions because (1) of an alleged violation    E&T	��������������������������������� Environment and Technology                        PCIE	������������������������������President’s Council on Integrity
                                                                                                                                                                                                                             and Efficiency
 of a law, regulation, contract, cooperative agreement, or other document
                                                                                  EPA	����������������������������Environmental Protection Agency
 governing the expenditure of funds; (2) such cost is not supported by adequate                                                                                           PII	����������������������������� Personally Identifiable Information
 documentation; or (3) the expenditure of funds for the intended purposes was     ERC	�������������������������������������������Enterprise Risk Council
                                                                                                                                                                          SBU	����������������������������������������������Strategic Business Unit
 unnecessary or unreasonable.                                                     FAA	��������������������������������������������� Fixed Asset Accounting
                                                                                                                                                                          SIC	������������������������������Standard Industrial Classification
                                                                                  FLETA	���������������������Federal Law Enforcement Training
 Unsupported Costs – A cost that is questioned because of the lack of adequate                                                  Accreditation                             SPP	������������������������������Standard Programs and Processes
 documentation at the time of the audit.                                                                                                                                  Stantec	������������������������ Stantec Consulting Services, Inc.
                                                                                  FLETC........ Federal Law Enforcement Training Center
                                                                                  FPG	�����������������������������������������������Fire Protection Group                TCM	���������������������������������� Technical Contract Manager

                                                                                  FYs	����������������������������������������������������������������� Fiscal Years      TDEC	���������������Tennessee Department of Environment
                                                                                                                                                                                                                 and Conservation
                                                                                  IG	���������������������������������������������������������Inspector General
                                                                                                                                                                          TVA	��������������������������������������� Tennessee Valley Authority
                                                                                  IG Academy	�������������������������Inspector General Criminal
                                                                                                                            Investigator Academy




TVA   68
      1 OIG
         OIG         SEMIANNUAL REPOR T | April 1 – September 30, 2010                                                                                        SEMIANNUAL REPOR T | April 1 – September 30, 2010                 TVA        69        OIG
                 TENNESSEE VALLEY AUTHORITY
                 OFFICE OF THE INSPECTOR GENERAL

                 400 West Summit Hill Drive
                 Knoxville, Tennessee 37902

                                                                                                                                    Our Leadership Philosophy
                 The OIG is an independent organization charged with conducting audits,
                 inspections, and investigations relating to TVA programs and operations, while
                 keeping the TVA Board and Congress fully and currently informed about problems
                 and deficiencies relating to the administration of such programs and operations.
                                                                                                                                 THE TVA OIG STRIVES TO BE A HIGH PERFORMING

                 The OIG focuses on (1) making TVA’s programs and operations more effective and                                  ORGANIZATION    MADE    UP   OF   DEDICATED
                 efficient; (2) preventing, identifying, and eliminating waste, fraud, and abuse and                             INDIVIDUALS WHO ARE EMPOWERED, MOTIVATED,
                 violations of laws, rules, or regulations; and (3) promoting integrity in financial reporting.
                                                                                                                                 COMPETENT, AND COMMITTED TO PRODUCING
                 If you would like to report to the OIG any concerns about fraud, waste, or abuse                                HIGH QUALITY WORK THAT IMPROVES TVA AND
                 involving TVA programs or violations of TVA’s Code of Conduct, you should contact
                                                                                                                                             LIFE IN THE VALLEY.
                 the OIG Empowerline system.   The Empowerline is administered by a third-party
                 contractor and can be reached 24 hours a day, seven days a week, either by a toll-
                 free phone call (1-877-866-7840) or over the Web (www.oigempowerline.com).  
                                                                                                                                 EACH OF US HAS IMPORTANT LEADERSHIP,
                 You may report your concerns anonymously or you may request confidentiality. 
                                                                                                                                 MANAGEMENT,     TEAM,    AND      T EC HNI C AL
                 Report concerns to the OIG Empowerline.
                                                                                                                                 ROLES. WE VALUE INTEGRITY, PEOPLE, OPEN
                                                                         A confidential connection for reporting fraud,
                                                                                 waste or abuse affecting TVA.
                                                                                                                                 COMMUNICATION, EXPANSION OF KNOWLEDGE
                                                                      HOW TO REPORT A CONCERN                                    AND SKILLS, CREATIVE PROBLEM SOLVING AND
                                                                             Call toll-free: 877-866-7840
                                                                              Or report on the web:                                   COLLABORATIVE DECISION MAKING.
                                                                            www.OIGempowerline.com
                                                                      EmPowerline™ is sponsored by the Office of the Inspector
                                                                           General and operates independently of TVA.




TVA   70   OIG     SEMIANNUAL REPOR T | April 1 – September 30, 2010
 Tennessee Valley Authority
Office of the Inspector General




   400 WEST SUMMIT HILL DRIVE
   KNOXVILLE, TENNESSEE 37902
          OIG.TVA.GOV




                                  Printed on 100% recycled paper
